<html>
<title> - FACIAL RECOGNITION TECHNOLOGY: PART II ENSURING TRANSPARENCY IN GOVERNMENT USE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 FACIAL RECOGNITION TECHNOLOGY: PART II
                         ENSURING TRANSPARENCY
                           IN GOVERNMENT USE

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              JUNE 4, 2019
                               __________

                           Serial No. 116-031
                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-829 PDF                 WASHINGTON : 2019                         



                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
            Yvette Badu-Nimako, Legislative Director/Counsel
                           Gina Kim, Counsel
                        Laura Rush, Deputy Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 4, 2019.....................................     1

                               Witnesses

Ms. Kimberly J. Del Greco, Deputy Assistant Director, Criminal 
  Justice Information Services, Federal Bureau of Investigation
    Oral Statement...............................................     3
Dr. Gretta L. Goodwin, Director, Justice and Law Enforcement 
  Issues, Homeland Security and Justice Team, U.S. Government 
  Accountability Office
    Oral Statement...............................................     5
Dr. Charles H. Romine, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology
    Oral Statement...............................................     6
Mr. Austin Gould, Assistant Administrator, Requirements and 
  Capabilities Analysis, Transportation Security Administration
    Oral Statement...............................................     8

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              
The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.

  * Document from the Association for Cybersecurity Providers, 
  submitted by Mr. Higgins.
  * Letter to Chairman Cummings from the Consumer Technology 
  Association, submitted by Mr. Jordan.
  * Forbes Article by Thomas Brewster, "We Broke Into a Bunch of 
  Android Phones With a 3-D Printed Head," submitted by Mr. 
  Massie.
  * Article by Joseph Cox of Vice News, "SocioSpyder: The Tool 
  Bought by the FBI to Monitor Social Media," submitted by Mr. 
  Hice.
  * Archived copy of SocioSpyder web domain, submitted by Mr. 
  Hice.
  * Purchase of Order logs of FBI and agreement purchased by 
  Allied Associates, International, submitted by Mr. Hice.
  * Article, "Face Recognition Performance: Role of Demographic 
  Information" dated 12-6-2012, submitted by Mr. Cummings.
  * Face Off - White Paper by the Electronic Frontier Foundation, 
  submitted by Mr. Cummings.
  * GAO Priority Open Recommendations, letter to Attorney General 
  Barr, submitted by Mr. Cummings.
  * Coalition letter calling for a Federal moratorium on face 
  recognition, submitted by Mr. Cummings.
  * Three NIST reports on facial recognition, submitted by Mr. 
  Cummings.
  * Questions for the Record addressed to Ms. Del Greco, Mr. 
  Gould, and Dr. Romine.
  * Rep. Connolly's Unanimous Consent Statement for the Record.

 
                 FACIAL RECOGNITION TECHNOLOGY: PART II
                         ENSURING TRANSPARENCY
                           IN GOVERNMENT USE

                              ----------                              


                         Tuesday, June 4, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                                           Washington, D.C.

    The committee met, pursuant to notice, at 9:59 a.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, Sarbanes, 
Welch, Speier, Kelly, DeSaulnier, Lawrence, Khanna, Gomez, 
Ocasio-Cortez, Pressley, Tlaib, Jordan, Amash, Gosar, Massie, 
Meadows, Hice, Grothman, Cloud, Higgins, Roy, Miller, 
Armstrong, and Steube.
    Chairman Cummings. The committee will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    This is our second hearing on facial recognition 
technology.
    I now recognize myself for five minutes to make an opening 
statement.
    Today, the committee is holding our second hearing on the 
use of facial recognition technology, and we will be examining 
the use of this technology by law enforcement agencies across 
the Federal Government.
    We had a broad survey of a full range of issues raised by 
technology. We heard from a number of experts about the 
benefits and the dangers of this technology across government 
and the entire private sector.
    The stark conclusion after our last hearing was that this 
technology is evolving extremely rapidly without any real 
safeguards. Whether we are talking about commercial use or 
government use, there are real concerns about the risks that 
this technology poses to our civil rights and liberties and our 
right to privacy.
    The other conclusion from our last hearing was that these 
concerns are indeed bipartisan. As we saw at our last hearing, 
among conservatives and liberals, Republicans and Democrats, 
there is wide agreement that we should be conducting oversight 
of this issue to develop commonsense, concrete proposals in 
this area. And I truly appreciate the Ranking Member's 
commitment to working together on this issue again in a 
bipartisan way.
    Today, we will focus on the use of facial recognition 
technology by our government. Our committee has broad 
jurisdiction over all government agencies, so we are uniquely 
situated to review how different agencies are using this 
technology on the American people.
    For example, today we will hear from the Federal Bureau of 
Investigation. In April, the Government Accountability Office 
sent a letter to the Department of Justice with open 
recommendations on the FBI's use of facial recognition 
technology. As that letter stated, the FBI had not implemented 
these recommendations despite the fact that GAO initially made 
them three years ago.
    We will also hear from GAO, not only on the importance of 
these recommendations which focus on transparency and accuracy, 
but also on the dangers associated with failing to implement 
them.
    We will also hear from the Transportation Security 
Administration, which has launched pilot programs in U.S. 
airports that subject American citizens to a facial recognition 
system.
    Finally, we will hear from the National Institute of 
Standards and Technology, or NIST. NIST has been the standard 
bearer for biometric accuracy for the past 20 years. NIST will 
discuss the state of the technology, the rapid advancement of 
this technology, the accuracy challenges this technology still 
faces, and future plans for testing and monitoring progress.
    Hearing from all of these relevant actors and building this 
record of information is important as we begin to stress the 
use of facial recognition technology by both government and 
private actors and potentially develop legislative solutions.
    We will continue to hear from additional stakeholders 
through our subcommittees, each of which is tasked with a 
specialized focus, such as safeguarding civil rights and 
liberties, protecting consumers, examining our government's 
acquisition of this technology, and reviewing national security 
concerns.
    I anxiously look forward to hearing from all of our 
witnesses today.
    And now, with that, I recognize the distinguished Ranking 
Member of our committee, Mr. Jordan, for his opening statement.
    Mr. Jordan. Mr. Chairman, thank you. I mean it; thank you 
for this hearing. We fight a lot on this committee, and I think 
we may have a little vigorous debate tomorrow morning, but 
today is a subject matter where we have a lot of agreement and 
a lot of common ground. So I genuinely appreciate the 
Chairman's willingness to have a second hearing on this 
important subject.
    Two weeks ago, we learned some important things. Facial 
recognition technology, there are all kinds of mistakes made 
when it is implemented. Those mistakes disproportionately 
impact African Americans. There are First Amendment and Fourth 
Amendment concerns when it is used by the FBI and the Federal 
Government. There are due process concerns when it is used by 
the FBI and the Federal Government.
    We learned that over 20 states, 20 states, have given their 
Bureau of Motor Vehicles the driver's license data base. They 
have just given access to that to the FBI. No individual signed 
off on that when they renewed their driver's license or got 
their driver's license. They didn't sign any waiver saying, oh, 
it is okay to turn my information, my photo over to the FBI. No 
elected officials voted to allow that to happen, no state 
assemblies, no general assemblies, no bills, no Governor 
signing something, passing a bill saying it is okay for the FBI 
to have this information.
    And now we learn that when GAO did their investigation and 
study into how the FBI implemented this, there were all kinds 
of mistakes the FBI made in how it was implemented. I think 
five recommendations that the GAO said you are supposed to 
follow the FBI didn't follow. And it has been three years for 
some of those that they still haven't corrected and fixed those 
concerns that GAO raised with the implementation of facial 
recognition technology.
    And all this happens, all this happens in a country with 50 
million surveillance cameras.
    So this is an important subject. And again, I appreciate 
the Chairman's willingness to have a second hearing and 
willingness to work together in a bipartisan fashion to figure 
out what we can do to safeguard American citizens' First 
Amendment and Fourth Amendment and due process rights as we go 
forward.
    Chairman Cummings. Thank you very much.
    I now want to welcome our witnesses.
    Ms. Kimberly J. Del Greco is the Deputy Assistant Director 
of Criminal Justice Information Services at the Federal Bureau 
of Investigation.
    Dr. Gretta Goodwin is the Director of Homeland Security and 
Justice at the U.S. Government Accountability Office.
    Dr. Charles Romine is the Director of the Information 
Technology Laboratory at the National Institute of Standards 
and Technology.
    Mr. Austin Gould is the Assistant Administrator of 
Requirements and Capabilities Analysis at the Transportation 
Security Administration.
    If you would please stand and raise your right hand, I will 
swear you all in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you very much. You may be seated.
    The microphones are very sensitive, so please speak 
directly into them. Make sure they are on when you speak, 
please.
    Without objection, your written statements will be made a 
part of the official record of this committee.
    With that, Director Del Greco, you are now recognized to 
give your statement for five minutes.,

STATEMENT OF KIMBERLY J. DEL GRECO, DEPUTY ASSISTANT DIRECTOR, 
   CRIMINAL JUSTICE INFORMATION SERVICES, FEDERAL BUREAU OF 
                         INVESTIGATION

    Ms. Del Greco. Thank you, Chairman Cummings and Ranking 
Member Jordan, and the members of the committee. My name is 
Kimberly Del Greco. I am the Deputy Assistant Director leading 
the Information Services Branch with the FBI's Criminal Justice 
Information Services Division. Thank you for the opportunity to 
appear before the committee. I am testifying today regarding 
the FBI's use of facial recognition for law enforcement 
purposes.
    It is crucial that authorized members of law enforcement 
and national security communities have access to today's 
biometric technologies to investigate, identify, apprehend, and 
prosecute terrorists and criminals. The FBI's Next-Generation 
Identification, or NGI system, which includes facial 
recognition, aids in our ability to solve crimes across the 
country. Facial recognition is an investigative tool that can 
greatly enhance law enforcement capabilities and protect public 
safety.
    At the FBI, trust is crucial. Protecting the privacy and 
civil liberties of the American people is part of our culture. 
This is why, when the FBI developed its facial recognition 
technologies, it also pioneered a set of best practices to 
effectively deploy these technologies for public safety in 
keeping with the law and without interfering with our 
fundamental rights.
    The FBI has two separate programs using facial recognition 
technology. They are the FBI's Interstate Photo System, or IPS, 
and the FBI's Facial Analysis Comparison and Evaluation, or 
FACE Services Unit.
    Specifically, the NGI-IPS allows authorized law enforcement 
agencies the ability to use investigative tools of facial 
recognition by searching criminal mug shots. Law enforcement 
has performed photo line-ups for decades. While this practice 
is not new, the efficiency of such searches has significantly 
improved using automated facial recognition.
    The FBI's policies and procedures emphasize that photo 
candidates returned are not to be considered positive 
identification, that the searches of photos will only result in 
a ranked listing of candidates. The FBI requires users of the 
NGI-IPS to follow the NGI Implementation Guide and the Facial 
Identification Scientific Working Group Standards for 
performing facial recognition comparisons. The policy places 
legal, training, and security requirements on law enforcement 
users of the NGI-IPS, including a prohibition against 
submitting probe photos that were obtained without respect to 
the First and/or Fourth Amendments.
    Photos in the NGI-IPS repository are solely criminal mug 
shots acquired by law enforcement partners with criminal 
fingerprints associated with an arrest. The FBI FACE Services 
Unit provides investigative lead support to FBI offices, 
operational divisions, and legal attaches by using trained FACE 
examiners to compare FACE images of persons associated with 
open assessments or active investigations against facial images 
available in state and Federal facial recognition systems 
through established agreements with state and Federal 
authorities.
    The FACE Services Unit only searches probe photos that have 
been collected pursuant to the Attorney General guidelines as 
part of an authorized FBI investigation, and they are not 
retained. This service does not provide positive identification 
but rather an investigative lead.
    Since the GAO review and the last oversight hearing in 
2017, the FBI has taken significant steps to advance the FBI's 
facial recognition technology. At the end of 2017, the FBI 
validated the accuracy rate at all list sizes. In early 2018, 
the FBI required law enforcement users to have completed facial 
recognition training consistent with the FACE standards prior 
to conducting facial recognition searches in the NGI-IPS. 
Additionally, the FBI collaborated with NIST to perform the 
facial recognition vendor test and determined a most viable 
option to upgrade its current NGI-IPS algorithm. The algorithm 
chosen boasted an accuracy rate of 99.12 percent. Leveraging 
the NIST results, the FBI is implementing the upgraded facial 
recognition algorithm.
    I would like to thank the men and women of the FBI for 
their unwavering commitment. I am proud to be working alongside 
so many mission-focused staff, protecting the country against 
horrific crimes.
    I also want to thank the members of this committee for 
their engagement on this issue on behalf of the American people 
and our law enforcement partners.
    Thank you.
    Chairman Cummings. Thank you very much.
    Dr. Goodwin?

STATEMENT OF GRETTA L. GOODWIN, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Goodwin. Chairman Cummings, Ranking Member Jordan, and 
members of the committee, I am pleased to be here today to 
discuss GAO's work on the FBI's use of face recognition 
technology.
    Over the past few decades, this technology has advanced 
rather quickly, and it now has wide-ranging usage, from 
accessing a smart phone to social media, and to helping law 
enforcement in criminal investigations.
    However, questions exist regarding the accuracy of the 
technology, the transparency in its usage, and the protection 
of privacy and civil liberties when that technology is used to 
identify people based on certain characteristics.
    Today I will discuss the extent to which the FBI has 
assured adherence to laws and policies related to privacy and 
transparency regarding its use of face recognition technology, 
as well as whether the FBI has ensured its face recognition 
capabilities are sufficiently accurate.
    I also will provide updates on the priority recommendations 
that GAO issued in April of this year regarding this 
technology.
    In our May 2016 report, we noted that two legally required 
documents--the Privacy Impact Assessment, otherwise known as 
the PIA, and the Systems of Records Notice, otherwise known as 
the SORN--were not being published in a timely manner. These 
documents are vitally important for privacy and transparency, 
because the PIA analyzes how personal information is collected, 
stored, shared, and managed, while the SORN informs the public 
about the very existence of the systems and the types of data 
being collected, among other things.
    DOJ has taken actions to expedite the development process 
of the PIAs, but it has yet to update the process for issuing 
the SORNs.
    We also reported on accuracy concerns about FBI's face 
recognition capabilities. Specifically, we found that the FBI 
conducted limited assessments of the accuracy of the face 
recognition searches before they accepted and deployed the 
technology. For example, the face recognition system generates 
a list of the requested number of photos. The FBI only assessed 
accuracy when users requested a list of 50 possible matches. It 
did not test smaller list sizes, which might have yielded 
different results.
    Additionally, these tests did not specify how often 
incorrect matches were returned. Knowing all of this, the FBI 
still deployed the technology.
    The FBI often uses face recognition systems operated by 21 
state and two Federal external partners to enhance its criminal 
investigations. We reported that the FBI had not assessed the 
accuracy of these external systems. As a result, they cannot 
know how accurate these systems are, yet the FBI keeps using 
them.
    Moreover, we found that the FBI did not conduct regular 
reviews to determine whether the searches were meeting users' 
needs. We made recommendations to address all of these accuracy 
concerns. DOJ has yet to implement these regs.
    As you are aware, in April of this year we issued our 
annual Priority Recommendations Report which provided an 
overall status of DOJ's open recommendations and outlined those 
that GAO believes should be given high priority. This report 
included six recommendations related to face recognition. As of 
today, five of those six remain open.
    The use of face recognition technology raises potential 
concerns about both the effectiveness of the technology in 
aiding law enforcement and the protection of privacy and 
individual civil liberties. This technology is not going away, 
and it is only going to grow. So it will be important that DOJ 
take steps to ensure the transparency of the systems so that 
the public is kept informed about how personal information is 
being used and protected; that the implementation of the 
technology protects individuals' privacy; and that the 
technology and systems used are accurate and are being used 
appropriately.
    Chairman Cummings, Ranking Member Jordan, and members of 
the committee, this concludes my remarks. I am happy to answer 
any questions you have.
    Chairman Cummings. Thank you very much.
    Dr. Romine?

     STATEMENT OF CHARLES H. ROMINE, DIRECTOR, INFORMATION 
  TECHNOLOGY LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND 
                           TECHNOLOGY

    Mr. Romine. Chairman Cummings, Ranking Member Jordan, and 
members of the committee, I'm Chuck Romine, Director of the 
Information Technology Laboratory at the Department of 
Commerce's National Institute of Standards and Technology, or 
NIST. Thank you for the opportunity to appear before you today 
to discuss NIST's role in standards and testing for facial 
recognition technologies.
    In the area of biometrics, NIST has been working with the 
public and private sectors since the 1960's. NIST's work 
improves the accuracy, quality, usability, interoperability, 
and consistency of identity management systems and ensures that 
United States interests are represented in the international 
arena.
    NIST research has provided state-of-the-art technology 
benchmarks and guidance to industry and to U.S. Government 
agencies that depend upon biometrics recognition. NIST leads 
national and international consensus standards activities in 
biometrics such as facial recognition technology, but also in 
cryptography, electronic credentialing, secure network 
protocols, software and systems reliability, and security 
conformance testing, all essential to accelerate the 
development and deployment of information and communication 
systems that are interoperable, reliable, secure, and usable.
    NIST biometric evaluations advance the technology by 
identifying and reporting gaps and limitations of current 
biometric recognition technologies. NIST evaluations advance 
measurement science by providing a scientific basis for what to 
measure and how to measure. NIST evaluations also facilitate 
development of consensus-based standards by providing 
quantitative data for development of scientifically sound, fit-
for-purpose standards.
    NIST conducted the Face Recognition Grand Challenge and 
multiple biometric grand challenge programs to challenge the 
facial recognition community to break new ground, solving 
research problems on the biometric frontier. Since 2000, NIST's 
Face Recognition Vendor Testing Program, or FRVT, has assessed 
capabilities of facial recognition algorithms for one-to-many 
identification and one-to-one verification. NIST expanded its 
facial recognition evaluations in 2017. NIST broadened the 
scope of its work in this area to understand the upper limits 
of human capabilities to recognize faces and how these 
capabilities fit into facial recognition applications.
    Historically and currently, NIST biometrics research has 
assisted the Federal Bureau of Investigation, the FBI, and 
Department of Homeland Security, or DHS. NIST's research was 
used by DHS in its transition to ten prints for the former US-
VISIT program. NIST is currently working with FBI and DHS to 
analyze face recognition capabilities, including performance 
impacts due to image quality and demographics, and provide 
recommendations regarding match algorithms, optimal thresholds, 
and match gallery creation.
    NIST's Face Recognition Vendor Testing Program was 
established in 2000 to provide independent evaluations of both 
prototype and commercially available facial recognition 
algorithms. Significant progress has been made in algorithm 
improvements since the program was created.
    NIST is researching how to measure the accuracy of forensic 
examiners matching identity across different photographs. The 
study measures face identification accuracy for an 
international group of professional forensic face examiners 
working under circumstances approximating real-world case work. 
The findings, published in the Proceedings of the National 
Academy of Sciences, showed that examiners and other human face 
specialists, including forensically trained facial reviewers 
and untrained super-recognizers, were more accurate than the 
control groups on a challenging test of face identification. It 
also presented data comparing state-of-the-art facial 
recognition algorithms with the best human face identifiers. 
Optimal face identification was achieved only when humans and 
machines collaborated.
    As with all areas, for face recognition, rigorous testing 
and standards development can increase productivity and 
efficiency in government and industry, expand innovation and 
competition, broaden opportunities for international trade, 
conserve resources, provide consumer benefit and choice, 
improve the environment, and promote health and safety.
    Thank you for the opportunity to testify on NIST activities 
in facial recognition, and I would be happy to answer any 
questions you may have.
    Chairman Cummings. Thank you very much.
    Mr. Gould?

      STATEMENT OF AUSTIN GOULD, ASSISTANT ADMINISTRATOR, 
REQUIREMENTS AND CAPABILITIES ANALYSIS, TRANSPORTATION SECURITY 
                         ADMINISTRATION

    Mr. Gould. Good morning, Chairman Cummings, Ranking Member 
Jordan, and distinguished members of the committee. Thank you 
for inviting me before you to discuss the future of biometric 
identity management at the Transportation Security 
Administration.
    I am Austin Gould, the Assistant Administrator for 
Requirements and Capability Analysis at TSA. I would like to 
thank the committee for working with TSA as we continue to 
improve the security of transportation systems, and 
particularly for your support of our officers at airports 
nationwide.
    TSA's establishment in 2001 charged the agency with 
providing transportation system security. A key component to 
performing this mission is positively identifying passengers 
who are boarding aircraft and directing them to the appropriate 
level of physical screening. This primarily occurs when 
passengers enter a checkpoint and present themselves to a 
security officer. Since its inception, TSA has strived to carry 
out that role as effectively and efficiently as possible using 
available technology.
    Recognizing the need to positively identify passengers in 
an era where fraudulent means of identification are becoming 
more sophisticated and prevalent, TSA has consistently sought 
new processes and technologies to improve performance while 
protecting passengers' privacy. To that end, TSA's 2018 
Biometrics Roadmap identifies the steps that the agency is 
taking to test and potentially expand biometric identification 
capability at TSA checkpoints, which we believe can both 
enhance security and improve passenger experience.
    The Roadmap has four major goals: partner with Customs and 
Border Protection on biometrics for international travelers; 
operationalize biometrics for TSA pre-check passengers; 
potentially expand biometrics for additional domestic 
travelers; and develop the infrastructure to support these 
biometric efforts.
    Consistent with the Biometrics Roadmap, TSA has conducted 
pilots that use facial biometrics to verify identity at certain 
airports. These pilots are of limited scope and duration and 
are being used to evaluate the applicability of biometric 
technology for TSA operations. The pilots to date have been 
executed in conjunction with Customs and Border Protection. 
Each pilot has been supported by a privacy impact assessment, 
and passengers always have the opportunity to not participate. 
In these cases, standard manual identification process is used.
    I have observed the pilot currently underway in Terminal F 
in Atlanta for international passengers. Of note, virtually 
every passenger chose to use the biometric identification 
process. The facial capture camera used for this pilot was in 
active mode, meaning that it only captured a facial image after 
the passenger was in position and the officer activated it. The 
match rate is extremely high, and passengers moved rapidly 
through the checkpoint.
    In that regard, biometrics represents a unique opportunity 
for TSA. This capability can increase security effectiveness 
for the entire system by using biometric identification while 
also increasing throughput at the checkpoint and enhancing the 
passengers' experience. The ability to increase throughput 
while providing more effective passenger identification will be 
extremely beneficial as we continue to see increasing passenger 
volumes, which are growing at a rate of approximately four 
percent annually. In fact, we experienced our busiest travel 
day ever on 24 May, the Friday of Memorial Day weekend, when we 
screened approximately 2.8 million passengers and crew.
    TSA is committed to addressing accuracy, privacy, and 
cybersecurity concerns associated with biometrics capture and 
matching. In that regard and pursuant to Section 1919 of the 
TSA Modernization Act, DHS will submit a report that includes 
assessments by TSA and CDP that were developed with the support 
of the DHS Science and Technology Directorate. This report will 
address accuracy, error rates, and privacy issues associated 
with biometric identification.
    Looking ahead, TSA plans to continue to build upon the 
success of past pilots by conducting additional ones at select 
locations and limited durations to refine requirements for 
biometric implementation at TSA checkpoints. These pilots will 
be supported by privacy impact assessments, clearly identified 
by airport signage, and passengers will always have the 
opportunity to choose not to participate.
    To close, TSA is in the process of a systematic assessment 
of the applicability of biometric identification at our 
checkpoints. This identification process will enhance aviation 
security while also increasing passenger throughput and making 
air travel a more enjoyable experience. TSA's system will be 
used for passenger identification and to determine the 
appropriate level of screening only. It will not be used for 
law enforcement purposes. And as always, passengers will have 
the opportunity to not participate.
    Thank you for the opportunity to address this important 
issue before the committee, and I look forward to answering 
your questions.
    Chairman Cummings. I now recognize myself.
    Ms. Del Greco, in 2017 the Government Accountability Office 
testified before our committee that the FBI had signed 
contracts with at least 16 states to be able to request 
searches of their photo data bases. The GAO stated that most of 
these systems accessed driver's license photos, but several 
states also include mug shots or correction photos.
    Ms. Del Greco, can you explain how the FBI decides to 
search a state data base versus when it searches its own 
system, and how this policy is determined?
    Ms. Del Greco. I would be happy to explain that. At the FBI 
we have a service called FACE Services Unit. They process 
background checks and process facial recognition searches of 
the state DMV photos. They do this in accordance with the 
Attorney General guidelines. An FBI field office has to have an 
open assessment or an active investigation. They submit the 
probe photo to the FBI FACE Services Unit. We launch the search 
to the state. The state runs the search for the FBI and 
provides a candidate list back.
    With regard to the NGI-IPS, the Interstate Photo System, 
the FACE Services Unit will utilize that repository, as well as 
the DMV photos. However, state and local and Federal law 
enforcement agencies only have access to the NGI Interstate 
Photo System. These are the FBI mug shots that are associated 
with a ten print criminal card associated with a criminal 
arrest record.
    Chairman Cummings. Well, do individuals who consent to 
having their faces in the non-criminal data bases also consent 
to having their faces searched by the FBI for criminal 
investigations? For example, when applying for a driver's 
license, does someone consent at the DMV to being in a data 
base searchable by the FBI?
    Ms. Del Greco. The FBI worked diligently with the state 
representatives in each of the states that we have MOUs. We did 
so under the state's authority to allow photos to be used for 
criminal investigations. We also abided by the Federal Driver's 
License Privacy Protection Act, and we consider that a very 
important process for us to access those photos to assist the 
state and local law enforcement and our Federal agencies.
    Chairman Cummings. Well, you just said state authority 
allows you to do this. One question that our Ranking Member has 
been asking over and over again is do you know whether in these 
states, do any elected officials have anything to do with these 
decisions? In other words, where is that authority coming from? 
We are trying to figure out, with something affecting so many 
citizens, whether elected officials have anything to do with 
it. Do you know?
    Ms. Del Greco. I do. Only in one state, the state of 
Illinois, did an elected official sign the MOU. In the other 
states, they were done with the state representatives. This is 
state law that is established at the state level prior to 
facial recognition and our program getting started. We are just 
leveraging that state law. That state law is already in place. 
We did work with the Office of General Counsel at the FBI, and 
at the attorney level at the state level.
    Chairman Cummings. Well, if it was prior to facial 
recognition coming into existence, I am just wondering, do you 
think that whatever laws you are referring to anticipated 
something like facial recognition?
    Ms. Del Greco. It is my understanding that the states 
established those laws because of fraud and abuse of driver's 
licenses, and we are just reviewing each of the state laws and 
working with the representatives in those states to ensure that 
we can leverage that for criminal investigation.
    Chairman Cummings. So when you say ``leverage,'' I guess 
you are saying that there were laws that were out there. These 
laws did not anticipate something like facial recognition, and 
now the FBI has decided that it would basically take advantage 
of those laws; is that right? Is that a fair statement?
    Ms. Del Greco. The Federal Driver's License Privacy 
Protection Act, it allows the state to disclose personal 
information, including a photo or an image obtained in 
connection with a motor vehicle record, to law enforcement to 
carry out its official function.
    Chairman Cummings. Okay, I just have a few more questions. 
We have seen significant concern among states about providing 
this level of access to the FBI. For example, during our May 22 
hearing, we learned that Vermont suspended the FBI's use of its 
driver's license data base in 2017; is that correct?
    Ms. Del Greco. I am not aware of that, sir.
    Chairman Cummings. Well, it is accurate.
    Ms. Del Greco, how many states have provided this level of 
direct access to the FBI?
    Ms. Del Greco. We do not have direct access. We submit a 
probe to the state. There's 21 states----
    Chairman Cummings. Twenty-one states, okay.
    Ms. Del Greco. And what we did, sir, in the last two years, 
since the last oversight hearing, our Office of General Counsel 
reviewed every single MOU to ensure that it met the Federal and 
the state authorities.
    Chairman Cummings. Does the FBI have plans to increase the 
number of states that provide the FBI with access to its data 
bases?
    Ms. Del Greco. That would be up to the states, sir. We have 
reached out to all the states, but it is up to them and their 
state authorities and state representatives if they want their 
data used. It is optional for them.
    Chairman Cummings. When states agree to provide this level 
of access to the FBI data base, are they aware of the FBI 
policies when searching their systems and any changes that are 
made to these policies?
    Ms. Del Greco. It is made extremely clear to each of the 
states how the information will be used, the retention. We 
purge all photos coming back to us from the state. We ask that 
the state purge all of the probe photos that we send them. 
There is----
    Chairman Cummings. How do you make them aware?
    Ms. Del Greco. We have active discussions, and then it is 
in the MOU, sir.
    Chairman Cummings. Is the FBI undergoing any current 
negotiations to expand the information available for FBI face 
services, photo services? If so, can you please describe these 
negotiations?
    Ms. Del Greco. I am not aware of any current negotiations 
right now, sir.
    Chairman Cummings. Now, finally, we also heard reports that 
the FBI can search photo data bases of other agencies, 
including the Department of state. Are there any limits to this 
access?
    Ms. Del Greco. The searches of the state Department's photo 
is in accordance with an active FBI investigation and are only 
done under the Attorney General guidelines followed by the FBI.
    Chairman Cummings. And can the FBI perform a face 
recognition search for any American with a passport?
    Ms. Del Greco. For an open assessment or an active 
investigation, only by the FBI, sir.
    Chairman Cummings. All right. I now recognize Mr. Gosar.
    Mr. Gosar. I thank the Chairman, and thanks for bringing 
this important issue to the forefront.
    Now, I know we don't have Border Patrol here and their use 
of facial recognition to meet the congressional mandate for 
biometrics, and I know that they have had some success. Also, I 
am from the state of Arizona, and our Department of 
Transportation uses this technology to combat fraudulent 
driver's license applications.
    Mr. Gould and Ms. Del Greco, can you give us a little bit 
more information and details on some of the successes with 
partners that you have been working with?
    Ms. Del Greco?
    Ms. Del Greco. The successes that we have had, the majority 
are with state and local law enforcement. The FBI is not a 
positive identification. It provides investigative leads out to 
law enforcement and to our FBI field offices. Some of those 
successes are assisting with the capture of a terrorist in 
Boston, assisting with putting the pieces together to identify 
where a pedophile is that was trying to avoid law enforcement 
for 20 years, and also assisting in identifying a person that 
was on the 10 Most Wanted list for homicide.
    Mr. Gosar. Mr. Gould?
    Mr. Gould. Sir, our greatest success in terms of partnering 
has been with Customs and Border Protection. We leverage their 
travel and verification system for biometrics identification at 
our checkpoints. As I said in my opening statement, we are 
doing this solely on a pilot basis, but so far the results have 
indicated a very high positive match rate, and it has increased 
through our checkpoints.
    Mr. Gosar. Mr. Romine, at our last hearing we heard some 
disturbing facts about accuracy of facial recognition. Can you 
give us some idea about, from what you see, are we going to be 
able to be much more accurate in that application?
    Mr. Romine. Yes, sir. The most recent testing that we have 
conducted demonstrates significant improvement over previous 
tests. We conducted tests in 2010 and 2014 and demonstrated 
certain limitations associated with facial recognition 
accuracy. The most recent test results will be published this 
month for the FRVT one-to-many evaluation that is being 
readied, but the results so far suggest substantial increases 
in accuracy across the board.
    Mr. Gosar. So what sort of accuracy rates are you finding 
in the different algorithms' ability to match an image against 
a larger gallery of images?
    Mr. Romine. The accuracy rates that we are seeing, we have 
many different participants who have submitted algorithms, 
approximately 70 participants in our testing. The best 
algorithms are performing at a rate of approximately 99.7 in 
terms of accuracy. There is still a wide variety or a wide 
variance across the number of algorithms, so this is certainly 
not commoditized yet. Some of the participants fared 
significantly poorer than that. But the best algorithms are in 
the 99 to 99.7 category.
    Mr. Gosar. So are there algorithms that you tested that you 
would recommend for law enforcement?
    Mr. Romine. We don't make recommendations about specific 
algorithms. We provide the data necessary for making informed 
decisions about how an algorithm will perform in the field. So 
for law enforcement, for example, accuracy rates are one 
important aspect that needs to be considered, but there are 
other aspects that have to be taken into consideration for 
procurement or acquisition of such technology.
    Mr. Gosar. So going back to the development of algorithms, 
really the bias can be built into those that are manufacturing 
or building the algorithm; isn't that true?
    Mr. Romine. It is true that the algorithms, depending on 
the way that they have been developed, can have biases 
associated with them. In many cases the improvement that we see 
in the performance of these algorithms, the dramatic 
improvement, comes from a transition that the vendor community 
and participant community have made to deep-learning 
algorithms, these machine-learning algorithms that are what has 
made the difference.
    Now, let me be clear. We test these or we evaluate these as 
black boxes. So my assertion there is from discussions that we 
have had with vendors and not from examination of the 
algorithms themselves. And the training of those algorithms 
determines the level of bias that may exist within the 
algorithms themselves.
    Mr. Gosar. I thank the Chairman.
    Chairman Cummings. Thank you very much.
    Mr. Lynch?
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you for 
holding a second hearing on facial recognition. I thank the 
Ranking Member as well. It is good to have bipartisan interest 
on this issue.
    Ms. Del Greco, I certainly understand the dynamic at play 
when there is an active FBI investigation ongoing and you are 
reviewing mug shots of known criminals.
    But, Mr. Gould, according to the Biometrics Roadmap 
released by TSA in September 2018, TSA seeks to expand the use 
of facial recognition technology to, quote, ``the general 
flying public'' in specific locations, but the general flying 
public. And TSA envisions the use of technology upon domestic 
flights as well as international, which would capture the faces 
of mostly American citizens.
    I am just curious, going back to the Chairman's original 
question, what is the legal basis? I am not talking about a 
situation with the FBI where you might have--you hopefully 
would have probable cause. Where does the TSA find its 
justification, its legal justification for capturing the facial 
identity of the flying public?
    Mr. Gould. Yes, sir. In accordance with the Aviation 
Transportation Security Act of 2001, TSA is charged with 
positively identifying passengers who are boarding aircraft.
    Mr. Lynch. Right. Let me just stop you right there. So, we 
all fly, at least a couple of times a week.
    Mr. Gould. Yes, sir.
    Mr. Lynch. So now you have to have a certified license. You 
can't go with the old version that your state had. Now we have 
much more accurate licenses. We surrender that. Oftentimes in 
the airport in the boarding process, you have to show it a 
couple of times. You have a ticketing issue there. So, you are 
doing that right now.
    Mr. Gould. Yes, sir.
    Mr. Lynch. You have been doing that for a long, long time.
    Mr. Gould. Manually. Yes, sir.
    Mr. Lynch. Right, right. So now you are saying that you are 
going to do these pilot programs and you are just going to herd 
people--now, you are saying voluntarily, but I could imagine, 
like you have done with pre-check, you can either agree to 
surrender your right to anonymity and wait in the long line, or 
you can give up your Fourth Amendment rights and go in the 
quick line. Is that the dynamic that is going on here?
    Mr. Gould. Sir, with respect to expanding to the general 
traveling public, we anticipate using--we have not tested this 
yet--a one-to-one matching capability at the checkpoint. You 
produce your credential, you stick it in a machine, and the 
machine identifies whether or not your image, which is captured 
by the camera, matches the image that is embedded in the 
credential, and it returns a match result. That will then allow 
you to proceed through the checkpoint. Should you decide not to 
participate in that program, we will always have the option to 
do that process manually.
    Mr. Lynch. Right. But to match, you have to have that data 
on board in the technology to begin with, to match something 
with; right?
    Mr. Gould. Sir, that data is embedded in your credential. 
So the photograph is on your driver's license, for example. 
There is a digital recording of that image in the credential, 
and when your picture is captured by the camera, it is matched 
to the photograph on the credential. It does not depart the 
checkpoint for any data base search or anything like that.
    Mr. Lynch. Okay.
    Mr. Gould. That is the one-to-one identification that we 
intend to use for the broader traveling public.
    Mr. Lynch. And that is it? You don't anticipate using a 
data base or collecting a data base of information within TSA 
with which to identify passengers?
    Mr. Gould. Sir, for international travelers who have a 
passport photo on record, and for TSA pre-check passengers who 
also provide a passport photo, we will match them to a gallery. 
But for the general traveling public that does not participate 
in those programs and merely has a credential, that match----
    Mr. Lynch. What is the size of the gallery? What do you 
anticipate? If anybody engages in international travel, are 
they going to be in that, or are they foreign nationals who 
travel to the U.S.?
    Mr. Gould. Sir, the gallery that we use right now with TVS 
includes anyone who is traveling internationally and who has a 
photo on record.
    Mr. Lynch. Well, here is the problem. We had a problem with 
OPM where we had 20 million individuals, their personal 
information, Social Security numbers, everything that they 
submitted on Federal documents to OPM was stolen by, we think, 
the Chinese. I am just curious and concerned that we don't have 
a great track record here in protecting people's personal 
information.
    Mr. Gould. Yes, sir. And the cybersecurity rules associated 
with this program is something that we take very, very 
seriously.
    Mr. Lynch. I hope so.
    My time has expired. I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Higgins?
    Mr. Higgins. Thank you, Mr. Chairman.
    Ladies and gentlemen, thank you for appearing before the 
committee today.
    Mr. Chairman, I ask unanimous consent to enter into the 
record a document from the security industry association. It is 
the Association for Cybersecurity Providers, just a general 
knowledge document. I ask unanimous consent.
    Chairman Cummings. Without objection, so ordered.
    Mr. Higgins. During this emerging technology era of digital 
technologies, I think it is important that we refer to 
technologies that we have had existing for quite some time. In 
2005, as a police officer, we had in the city that I patrolled, 
we had access to a camera, a series of cameras that were 
disguised as transformers on electric poles. When we had large 
numbers of complaints on crimes in portions of the city, and 
the citizenry themselves would want these crimes solved and 
investigated, we would have the linemen for the electric 
company install this camera, and we solved many crimes, and 
crimes would go down. This was 15 years ago.
    We have license plate readers right now. Madam, gentlemen, 
I am sure you are quite familiar with license plate readers. We 
use them from sea to shining sea. If your vehicle is on a 
public road, it is subject to a license plate reader. In fact, 
these cameras are not available to just law enforcement but any 
citizen who chooses to invest the treasure--they are quite 
expensive--can read the license plate, and it is cross-
referenced to the DMV. They now know exactly what vehicle 
passed in front of that camera. These cameras have been used to 
successfully investigate and solve crimes, some of them heinous 
crimes, crimes numbering in the scores of thousands across the 
country.
    I have in my home 11 smart cameras. These cameras are 
connected to software, high-resolution digital cameras. The 
software interprets the imagery to determine if it is a 
familiar person or not. If it is a familiar person that the 
cameras have learned is a constant visitor to my home--myself, 
my wife, my son, et cetera--then there is no alert sent to the 
security company. If it is not a familiar person, then a human 
being receives a prompt and looks at that camera feed to my 
home.
    These are technologies that exist that we all have. 
Everyone here wants to protect Fourth Amendment rights and 
privacy rights of American citizens. None of us want our 
constitutional protections violated. But the fact is this 
emerging technology of facial recognition is coming, and it is 
reflecting just the advancement of our digital technologies 
that we have already employed across the country and deployed 
in public areas, including airports.
    Ms. Del Greco, like any technology, there is a chance for 
abuse. Would you concur?
    Ms. Del Greco. We feel at the FBI that following policies 
and procedures is extremely important.
    Mr. Higgins. Thank you. And these are human beings 
following policies and procedures; correct?
    Ms. Del Greco. We require all authorized state and local 
law enforcement entities to adhere to the required training 
and----
    Mr. Higgins. Thank you, ma'am. So the technologies that we 
are viewing, these cameras don't make arrests, do they? They 
just add to the data of a case file or to the strength of an 
investigation, and a human being, an investigator must follow 
up on that and determine if you have probable cause for arrest. 
Is that correct?
    Ms. Del Greco. Our system doesn't capture real time. A 
probe photo has to be submitted to the NGI-IPS by law 
enforcement, and they have to have authority to access our 
system for a law enforcement purpose.
    Mr. Higgins. Well, the concern of this committee, as it 
should be, is the potential abuse of this technology. And I 
believe the point that we should clarify in my remaining 10 
seconds here is that human beings are ultimately in control of 
the investigative effort, and that the technology that is 
viewed is part of a much larger totality of circumstances in 
any criminal investigation. Would you concur with that, ma'am?
    Ms. Del Greco. For the FBI, we are very strict on the use 
of our system and the authorities that are provided to those 
law enforcement entities.
    Mr. Higgins. Thank you, Madam.
    Mr. Chairman, my time has expired.
    Chairman Cummings. What do you mean by ``strict''? What 
does that mean?
    Ms. Del Greco. Since the last hearing in 2017, the FBI--we 
take this very seriously, sir. We went out to our advisory 
policy board made up of over 100 state, local, Federal, and 
tribal entities. We talked to them about the GAO findings. We 
talked to them about collecting photos against the First and 
Fourth Amendments. We require state and local and Federal and 
tribal entities to have training to submit a photo to the NGI-
IPS. We restrict the access unless they are authorized to have 
it.
    We also put out the NGI Policy and Implementation Guide, 
and we told the states they must follow the standards that were 
identified in the Facial Identification Scientific Working 
Group Standards.
    Chairman Cummings. Mr. Clay?
    Mr. Clay. Thank you, Mr. Chairman. I want to thank you and 
the Ranking Member for conducting this hearing, and the 
witnesses for being here.
    Let me start with what the GAO recommended in May 2016, 
that the FBI make changes to ensure transparency of its use of 
facial recognition technology. In April 2019, GAO released a 
letter to the Department of Justice highlighting these 
recommendations, recommending, and I quote, ``DOJ determine, 
number 1, privacy impact assessments; and 2, a system of 
records notice where not published as required, and implement 
corrective actions,'' end of quote.
    DOJ did not agree with either of these recommendations, and 
the FBI still has not fully implemented the two open 
recommendations offered by GAO.
    Dr. Goodwin, can you explain the importance of transparency 
when it comes to the FBI's use of facial recognition 
technology?
    Ms. Goodwin. Yes. Thank you, sir. So, as you mentioned, we 
made six recommendations. Three of them related to privacy, 
three of them related to accuracy. Only one of those has been 
closed and implemented. The ones we made related to privacy and 
accuracy focused on the privacy impact assessment, and that is 
a requirement under the E-Gov Act of 2002, that PIAs be 
conducted to help determine the privacy implications and 
evaluate the protections. So the DOJ has disagreed with that. 
We know that they are concerned about privacy and transparency, 
but they disagree with our recommendation.
    These are legally required documents that they have to 
submit. So they have to submit the PIA, and they have to submit 
the SORN. The SORN is required under the Privacy Act, and that 
provides information--anytime there is a change to the system 
or a change to the technology, they have to make that 
information publicly available so that the public knows what is 
going on.
    So we stand behind those recommendations because those 
speak to transparency and those speak to privacy.
    Mr. Clay. And to this day, those documents have not been 
made public.
    Ms. Goodwin. That is correct.
    Mr. Clay. So, Ms. Del Greco, can you explain why the FBI 
disagrees with these transparency-focused recommendations?
    Ms. Del Greco. I believe DOJ disagrees with GAO's 
assessment of the legal requirements. The FBI did publish both 
the PIA and the SORN. Initial developments of the face 
recognition, we had privacy attorneys embedded in our process 
to develop the protocols and procedures, and we have submitted 
updates, continuing updates to the PIA and the SORN, and we 
have provided updates to the GAO.
    Mr. Clay. Okay. So what steps do you take to protect 
privacy when conducting face recognition searches?
    Ms. Del Greco. The FBI monitors the appropriate audits with 
audits of the state, local, Federal, and tribal entities. We 
look at four system requirements. We provide outreach to our 
users, and to date we have not had any violations or notice 
from the public that they feel like their rights are violated.
    Mr. Clay. And to what extent do you share the steps you 
take with the public?
    Ms. Del Greco. So those--with regard to the PIA and the 
SORN, those are on behalf of the Department of Justice, and I 
would have to take that question back to them, sir.
    Mr. Clay. I see. Would you get back to us with a response?
    Ms. Del Greco. Yes, sir.
    Mr. Clay. You know, I am concerned that the FBI is not 
fully complying with this notice obligation when it comes to 
the use of facial recognition. Ms. Del Greco, when the FBI 
arrests an individual based on a lead generated by face 
recognition, does it notify a defendant of that fact?
    Ms. Del Greco. So those are through FBI open assessments or 
active investigations, and they are done so conforming to and 
following the Attorney General guidelines, and that would be 
for an active FBI investigation.
    Mr. Clay. So how many times has the FBI provided notice to 
criminal defendants that face recognition was used in their 
case?
    Ms. Del Greco. As part of a criminal investigation, I don't 
believe that is part of the process.
    Mr. Clay. Oh. What about when it gets to trial? When it 
gets through discovery they get that?
    Ms. Del Greco. So, the FBI FACE Services Unit, and that is 
the department that I represent, the CJIS Division in 
Clarksburg, West Virginia, we provide a candidate back to the 
FBI field office, two or more candidates, and they make the 
determination whether that is a match or not, or their person 
of interest that they are looking for.
    Mr. Clay. So does the FBI provide other candidate matches 
to the defendant as part of Brady evidence or discovery?
    Ms. Del Greco. I am not aware of any other information 
other than a candidate back from a search of the facial--the 
NGI Interstate Photo System.
    Mr. Clay. Okay. What steps are the FBI taking to ensure 
that its use of the technology is as transparent as possible by 
showing proper notification?
    Ms. Del Greco. The FBI provides policy and procedures out 
to state and local entities that they must follow. They have to 
follow the standards that we establish, and they have to make 
sure that they do so in accordance with authorized law 
enforcement purposes.
    Mr. Clay. So how does the public know whether their face 
image might be subject to searches you conduct?
    Ms. Del Greco. The law enforcement entity would have to 
have the authority to do so for criminal justice purposes in 
order to access the NGI Interstate Photo System.
    Mr. Clay. I see. All right.
    My time has expired. I yield back, Mr. Chairman.
    Chairman Cummings. Mr. Jordan?
    Mr. Jordan. Thank you, Mr. Chairman.
    Dr. Goodwin, did the FBI meet all the requirements of the 
E-Government law?
    Ms. Goodwin. So, as I mentioned earlier, the PIA is the E-
Government----
    Mr. Jordan. Did they meet all the requirements? I was kind 
of looking for a yes or no. Did they meet all the requirements 
when they implemented----
    Ms. Goodwin. No. We still have open recommendations related 
to the----
    Mr. Jordan. No, I understand.
    Dr. Goodwin, did the FBI publish privacy impact assessments 
in a timely fashion as it was supposed to when it implemented 
FRT in 2011?
    Ms. Goodwin. No.
    Mr. Jordan. Did the FBI file proper notice, specifically 
the system of record notice, in a timely fashion when it 
implemented facial recognition technology?
    Ms. Goodwin. No.
    Mr. Jordan. Did the FBI conduct proper testing of the Next-
Generation Interstate Photo System when it implemented FRT?
    Ms. Goodwin. Proper in terms of determining its accuracy 
for its use?
    Mr. Jordan. Yes.
    Ms. Goodwin. No.
    Mr. Jordan. Did the FBI test the accuracy of the state 
systems that it interfaced with?
    Ms. Goodwin. No.
    Mr. Jordan. So, it didn't follow the law, the E-Government 
law, it didn't file proper privacy impact assessment notices 
like it was supposed to, didn't provide timely notice, didn't 
provide proper testing of the system it had, and didn't check 
the accuracy of the state system that it was going to interface 
with; right? Those five things they didn't do.
    Ms. Goodwin. That is correct.
    Mr. Jordan. But Ms. Del Greco said we have strict 
standards, you can count on us. We've got Memorandums of 
Understanding with the respective states to safeguard people. 
That is what she told us. But when they started this system, 
stood up this system, there were five key things they were 
supposed to follow that they didn't, and my understanding is 
they still haven't corrected all those; is that accurate?
    Ms. Goodwin. That is correct.
    Mr. Jordan. So they still haven't fixed the five things 
they were supposed to do when they first started.
    Ms. Goodwin. We still have five open recommendations.
    Mr. Jordan. But we are supposed to believe, don't worry, 
everything is just fine, and we haven't even got to the 
fundamentals yet. We haven't even got to the First Amendment 
concerns, the Fourth Amendment concerns. We are just talking 
about the process for implementing standing up the system.
    Ms. Del Greco, you said earlier to the Chairman--I think 
you used the words ``strict policies that we follow.'' Now, how 
are we supposed to have confidence in strict policies that you 
are going to follow when you didn't follow the rules when you 
set the thing up in the first place?
    Ms. Del Greco. Sir, the FBI published both the PIA and the 
SORN. The DOJ, Department of Justice, disagrees with GAO on how 
they interpret the legal assessment of the PIA and SORN.
    Mr. Jordan. Do you just disagree with them in one area or 
all five?
    Ms. Del Greco. I believe in the three areas of the findings 
for GAO.
    Mr. Jordan. You have five problems.
    Ms. Del Greco. The accuracy was tested of the system. We 
disagree with GAO. And actually, since the last hearing in 
2017, the FBI went back and we evaluated our current algorithm 
again at all list sizes, and the accuracy boasted above a 90 
percentile than what we had reported initially in the hearing. 
We do care about the accuracy of the system and the testing.
    Mr. Jordan. Earlier you said, when the Chairman was asking 
some questions, you said that there are folks who signed 
Memorandums of Understanding between--someone at the FBI signed 
some document, and someone in the 21 respective states to allow 
access to their data base signs these Memorandums of 
Understanding. Who are the people signing that document, 
signing away the rights of the citizens in their respective 
states? Who are those individuals?
    Ms. Del Greco. Our Office of General Counsel works with the 
state representatives in the state that garners those 
authorities.
    Mr. Jordan. But not state representatives in the sense that 
they are elected to the General Assembly in those respective 
states. Some person designated by somebody to sign away--I know 
in Ohio--I think I said this two weeks ago--we have 11 million 
people in our state. My guess is 8, 9, 10 million of them 
drive. So someone is signing away access to those 9 million 
people's faces, their picture and everything else in that data 
base. Who is that individual?
    Ms. Del Greco. The state authorities are public documents 
that anyone could get access to. We work with the appropriate 
state officials. We review those documents very carefully. We 
talk about the use of the data, and we make sure they are in 
accordance with our Federal Driver's License Privacy Protection 
Act as well.
    Mr. Jordan. Okay.
    Mr. Chairman, again, I just come back to the basics. Five 
key things they were supposed to do when they started 
implementing the system, I think dating all the way back to 
2011, if I read the material correctly, that they didn't 
follow, and yet we are supposed to believe don't worry, don't 
worry, everything is just fine, all this happening in an 
environment, as we said earlier--we learned two weeks ago an 
environment where there are 50 million surveillance cameras 
around the country.
    Again, I appreciate the Chairman's willingness to have a 
second hearing on this and his willingness to work with the 
minority party in trying to figure out where we go down the 
road.
    With that, I yield back.
    Chairman Cummings. What is your disagreement, by the way, 
with GAO? You said there is a disagreement. What is it?
    Ms. Del Greco. With regard to privacy?
    Chairman Cummings. Yes.
    Ms. Del Greco. DOJ, I understand, disagrees with the legal 
assessment of the PIA, the SORN, and the reporting of such. But 
I would have to take that specifically back to DOJ to respond.
    Chairman Cummings. Would you do that for us, please?
    Ms. Del Greco. I will, sir.
    Chairman Cummings. Thank you very much.
    Ms. Maloney?
    Mrs. Maloney. Thank you, Mr. Chairman, and thank you and 
the Ranking Member and all the panelists for being here on this 
important hearing.
    I have read that facial recognition technology is 
susceptible to errors that can have grave ramifications for 
certain vulnerable populations. I have read that for some 
reason it is more difficult to recognize women and minorities. 
I would like a private meeting with members who are interested 
in this on why this was reported, if it was reported correctly.
    But what I want to do is follow up on the Ranking Member's 
questions on really the scope and accountability of this 
program.
    So, Ms. Del Greco, how many searches has the FBI run in the 
Next-Generation Identification Interstate Photo System to date? 
How many searches? Do you have that information?
    Ms. Del Greco. I have from Fiscal Year 2017 to April 2019. 
There were 152,500 searches.
    Mrs. Maloney. Okay. And does the FBI track if the results 
of this system are useful in your investigations?
    Ms. Del Greco. We do ask our state, local, Federal, and 
tribal to provide feedback on the services that we provide. To 
date, we have not received any negative feedback.
    Mrs. Maloney. But have they said that it has been 
successful? Can you get back to me in writing? It is one thing 
not getting any feedback. The other is, is there any proof that 
this system has been helpful to law enforcement in any way? Has 
it led to a conviction? And get it to me in writing.
    How many of the FBI's searches have led to arrests and 
convictions? Do you have that information?
    Ms. Del Greco. I do not.
    Mrs. Maloney. You do not. How many of the FBI's searches 
have led to the arrest of innocent people?
    Ms. Del Greco. For facial recognition, the law enforcement 
entity must have authorized access to our system, and they must 
do so for----
    Mrs. Maloney. But my question was has it led to the arrest 
of any innocent people? Yes or no?
    Ms. Del Greco. Not to my knowledge, ma'am.
    Mrs. Maloney. Okay. And are you tracking the number of 
searches that have led to arrests? You don't know anything 
about any innocent person being arrested?
    Ms. Del Greco. Our system is not built for identification. 
We provide two or more----
    Mrs. Maloney. Okay. Maybe we should change your system, 
then, because we need accountability on if this system is 
working or not, or if it is just abusing people.
    And the FBI data base contains over 600 million photos of 
individuals that are primarily of people who have never been 
convicted of a crime. And my question is why does the FBI need 
to gather photos of innocent people?
    Ms. Del Greco. We do not have innocent people or citizens 
in our data base. We have criminal mug shot photos associated 
with a criminal arrest.
    Mrs. Maloney. Well, then my information that I read in the 
paper must be wrong. I am going to follow up with a letter for 
clarification, because I was told you had 600 million in your 
data base of innocent people.
    To me it is extremely important that we know whether the 
use of this technology leads to any benefits for society, 
especially in determining whether there is a crime that this is 
helping to solve, or are we just weighing in on constitutional 
rights of people and creating constitutional risk? We cannot 
know this unless there is a sufficient data base for law 
enforcement that uses this.
    So my question is what are the current reporting 
requirements regarding the FBI's use of facial recognition 
technology? Is there any oversight reporting requirements on 
the use of this technology?
    Ms. Del Greco. The FBI monitors appropriate uses of our 
technology through audits. We have a robust triennial audit 
where we have----
    Mrs. Maloney. Do you have a data base that tracks whether 
or not this is actually working, is it helping law enforcement 
arrest people, is it arresting innocent people, is it keeping 
information on innocent people? Do you have a data base that 
basically tells us what this program is doing and what the 
benefits or penalties are to our society?
    Ms. Del Greco. No, we do not.
    Mrs. Maloney. Well, I think you should have one, and I am 
going to go to work on one right now. I am very concerned about 
it, and the American people deserve government accountability, 
and I actually agree with the questioning of the minority party 
leadership on this, that you don't have answers on how it is 
working, how it was set up, what is coming out of it, whether 
it is hurting people, helping people. You don't even have 
information on whether it is aiding law enforcement in their 
goal for hunting down terrorists. So we need more 
accountability, and I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Massie?
    Mr. Jordan. Mr. Chairman----
    Chairman Cummings. I am sorry. Real quick, I recognize the 
Ranking Member for a unanimous consent request.
    Mr. Jordan. Unanimous consent for a letter sent from the 
Consumer Technology Association to Chairman Cummings about this 
issue.
    Chairman Cummings. Without objection, so ordered.
    Chairman Cummings. Mr. Massie?
    Mr. Massie. Thank you, Mr. Chairman.
    Dr. Romine, you reported on the accuracy of the algorithms 
that NIST tested. You said they are 99 to 99.7 percent 
accurate. First of all, that accuracy rating, I can imagine two 
ways the algorithm fails. One would be a false positive, and 
one would be failing to recognize an actual match. Which number 
are you reporting?
    Mr. Romine. So, for the--let me double check because I want 
to be sure I get this right. The accuracy at 99.7 I believe is 
false-negative rates, but I am going to have to double check 
and get back to you on that.
    Mr. Massie. Okay, that would be great. You can get back to 
me later.
    Did you test certain conditions like siblings, the accuracy 
for siblings?
    Mr. Romine. We do have--perhaps the most relevant data that 
I can give you is we do know that there is an impact on twins 
in the data base or in the testing, whether they are identical 
twins or even fraternal twins----
    Mr. Massie. Well, let me give you the data point I have. I 
have two sons. One is two-and-a-half years younger than the 
other. He can open his brother's phone. They don't look that 
much alike. They look like brothers. He furrows his eyebrows 
and changes the shape of his mouth to the way he thinks his 
brother looks, and he opens his phone every single time. So 
that accuracy is not 99 percent. That is zero percent.
    Now, that may be an older algorithm. I am sure they have 
improved in a couple of years since this happened.
    I want to submit for the record an article in Forbes by 
Thomas Brewster called ``We Broke Into a Bunch of Android 
Phones with a 3-D Printed Head.''
    Chairman Cummings. Without objection, so ordered.
    Mr. Massie. Thank you, Mr. Chairman.
    So I think these aren't as accurate--for certain special 
conditions, like somebody wearing a mask or make-up or maybe a 
sibling, the accuracy does not approach or may not approach 99 
percent with some of these algorithms. What do you think?
    Mr. Romine. The situations you are describing are 
situations where there is intent to deceive either through lack 
of----
    Mr. Massie. Do you think there is intent to deceive in the 
world?
    Mr. Romine. I certainly do.
    Mr. Massie. Yes. That is what we are worried about at TSA 
is intent to deceive, not the honest actor.
    But let me go to something else here, and this question is 
for Ms. Del Greco. The Supreme Court case, Brady v. Maryland, 
held that due process rights require government to promptly 
disclose potential exculpatory evidence with the defense. So in 
the case where multiple photos are returned, or there may be 
nine possible matches, does the defense get access or knowledge 
that there were other possible matches?
    Let me give you an example. In a prior hearing, I had 
somebody testify to us that a sheriff's office gave an example 
where a person, a person with 70 percent confidence was the 
person they ended up charging, even though the algorithm 
thought somebody else was at 90 percent confidence. So they 
charged the person that the algorithm said was 70 percent 
likely and passed over the one that was 90 percent likely in 
this case.
    Can you guarantee us that the FBI would provide that type 
of information to the defense?
    Ms. Del Greco. First, the FBI doesn't make a match. We 
provide an investigative lead to our law enforcement partners. 
But with all evidence obtained during an investigation----
    Mr. Massie. Do you ever provide more than one lead?
    Ms. Del Greco. We provide more than one lead sometimes. 
Yes, sir.
    Mr. Massie. Okay.
    Ms. Del Greco. Two or more. It depends on the state. Some 
states want 20 candidates, some want two back. It depends on 
their state system.
    Mr. Massie. So does the defense get access to the knowledge 
that there were other leads, and do you assign a probability or 
a confidence level with that facial recognition?
    Ms. Del Greco. I think the prosecution team must determine 
on a case-by-case basis.
    Mr. Massie. So you are not sure if they always get that.
    Ms. Del Greco. No, I am not. We don't provide a true match, 
an identification back. It is up to the law enforcement entity 
to make that decision.
    Mr. Massie. A quick question. How many photos does the face 
data base have access to, including the state driver's license 
data bases?
    Ms. Del Greco. That changes daily. I don't have that, sir.
    Mr. Massie. Is it in the millions, tens of millions?
    Ms. Del Greco. I don't know, sir. I can provide that to 
you.
    Mr. Massie. Do you have access to Kentucky's data base?
    Ms. Del Greco. I can check for you, sir.
    We do not.
    Yes, we do, sir.
    Mr. Massie. Okay. So you have access to all the photographs 
in the driver's license data base in Kentucky. Which elected 
official agreed to that?
    Ms. Del Greco. I believe we worked with the state 
authorities in Kentucky to establish the MOU.
    Mr. Massie. But not an elected official.
    Ms. Del Greco. The state authority is public, and it is 
pre-determined and established prior to face recognition.
    Mr. Massie. So you say the laws that you are relying on 
were passed before facial recognition became----
    Ms. Del Greco. They were. They were, sir.
    Mr. Massie. Okay. That is, I think, a problem.
    All right. I yield back, Mr. Chairman.
    Chairman Cummings. Thank you very much.
    Mr. Rouda?
    Mr. Rouda. Thank you, Mr. Chairman.
    Dr. Goodwin, in May 2016, the GAO made six recommendations 
to the FBI, three related to privacy, of which I believe one 
was implemented, and three related to accuracy. Can you talk 
about briefly the five that are not yet implemented?
    Ms. Goodwin. Yes, sir. So, the three related to privacy 
focused on developing the PIA process so that it is more 
aligned with the requirements. The other one focuses on 
publishing the SORN in a timely manner. So basically developing 
the process for the PIA, developing a process for the SORN, and 
making certain that those are published in a timely fashion.
    And then the other three are accuracy related, and they are 
about testing or expanding the candidate list size because, as 
you know, the list size, we took issue with the fact that they 
didn't test the smaller list size. So that is one of them.
    The other one is regularly assessing whether the NGI-IPS 
actually meets their needs, so that is an accuracy concern.
    And the other one focuses on the face data base, making 
certain that those are also meeting the needs.
    So those three questions related to accuracy I think kind 
of speak to this conversation here. The information that the 
FBI is using, that information needs to be accurate, especially 
if they are using it for their criminal investigations. It is 
really important that the information be accurate that they are 
using.
    Mr. Rouda. And these recommendations were made three years 
ago. Is the lack of implementation--why has that been the case 
for three years?
    Ms. Goodwin. That probably is a question better left to the 
FBI.
    Mr. Rouda. I will come around to that.
    Dr. Romine, you stated 99.7 percent accuracy, but that is 
specific algorithms. When you look at the breadth of algorithms 
that are used, I then assume based on your statement that there 
are accuracy rates much lower than that. Again, on the 
algorithm, can you elaborate on that?
    Mr. Romine. Yes, sir. The range of performance in terms of 
accuracy for the algorithms is pretty broad. Some of the 
participants have made substantial progress and have remarkably 
accurate algorithms in terms of the 99 and above percent for 
false-negative rates. Others are as much as--I believe it is 
about 60fold less accurate than that. But those are from a 
variety of sources, including one university algorithm for 
research participation.
    Mr. Rouda. And is their data--and I am going to ask you 
this, as well as Ms. Del Greco. Is their data showing facial 
recognition accuracy versus traditional photographs and 
enhanced photography?
    Mr. Romine. I am not quite sure I understand your question, 
sir.
    Mr. Rouda. Well, whether it is an old-fashioned technology 
of just using photographs versus facial recognition----
    Mr. Romine. Oh, I see.
    Mr. Rouda [continuing]. is there any data that we have 
available that shows facial recognition is a large step in the 
right direction, even with the challenges we are having here?
    Mr. Romine. We do have--NIST also tests human performance 
in facial recognition through comparison photographs. 
Interestingly, what we find, and I refer to my testimony, is 
that if you combine two humans, you don't really do much better 
than anyone individually. If you combine two algorithms, you 
don't really do much better than either individually. If you 
combine a human and a facial recognition algorithm, you do 
substantially better than either.
    Mr. Rouda. Okay. And, Ms. Del Greco, going to you, you can 
answer the same question, but also I would like to pivot back 
as to why the FBI has not implemented the five other 
recommendations of the GAO.
    Ms. Del Greco. The two recommendations regarding the PIA 
and the SORN, DOJ disagrees with GAO's legal assessment of the 
publication of the PIA and the SORN. We had privacy attorneys 
embedded in our process the whole time. We published a PIA and 
a SORN, and we continue to update those accordingly, and we 
have provided updates to GAO.
    With regard to the candidate list size, since the last 
hearing in 2017 the FBI conducted a test of our current 
accuracy in the system at all list sizes, and we were able to 
validate that the percentage was higher than what we published 
in 2017.
    Mr. Rouda. Okay. I just want to get one more quick question 
in. If a bad actor with bad intentions and the skill set to use 
disguises, doesn't that circumvent this entire process?
    Ms. Del Greco. We provide a candidate back, and we use 
trained FBI examiners. As Dr. Romine alluded, the system 
combined with the trained FBI examiner provides a better 
response back to the law enforcement entity.
    Mr. Rouda. Okay. Thank you.
    I yield back, Mr. Chairman.
    Chairman Cummings. Thank you very much.
    Mr. Amash?
    Mr. Amash. Thank you, Mr. Chairman.
    Ms. Del Greco, does the FBI use real-time face recognition 
on live video feeds, or have any plans to do so in the future?
    Ms. Del Greco. No, we do not.
    Mr. Amash. Has the FBI ever experimented with real-time 
face recognition?
    Ms. Del Greco. Not to my knowledge, sir.
    Mr. Amash. Do any of the FBI's domestic law enforcement 
partners utilize or plan to utilize real-time face recognition 
technology?
    Ms. Del Greco. Not for criminal justice purposes.
    Mr. Amash. Does the Department of Justice believe the FBI 
has statutory authority to do real-time face recognition 
itself?
    Ms. Del Greco. Not to my knowledge.
    Mr. Amash. Does the Department of Justice believe the FBI 
has statutory authority to give states grants that would 
support real-time face recognition?
    Ms. Del Greco. No, sir.
    Mr. Amash. Ms. Del Greco and Mr. Gould, please name the 
companies who lobby or communicate with your agencies about 
face recognition products they would like to provide.
    Ms. Del Greco. We have the testing that we have done 
through NIST, but those are the only agencies that we are 
familiar with, and we would defer to the NIST vendors that 
participated in the Facial Recognition Vendor Test in 2018.
    Mr. Gould. Sir, the system the TSA is prototyping in 
conjunction with CBP uses an NEC camera and a matching 
algorithm that was also developed by NEC.
    Mr. Amash. So NEC would be the only company?
    Mr. Gould. That is the company we are working with right 
now. Yes, sir.
    Mr. Amash. Okay. Mr. Gould, how many air passengers have 
participated in TSA's face recognition pilots?
    Mr. Gould. Sir, I would have to get back to you with a 
number on that, for the record.
    Mr. Amash. And you couldn't tell us how many participants 
are U.S. citizens?
    Mr. Gould. No, sir.
    Mr. Amash. Under what statutory authority does TSA use face 
recognition technology on American citizens?
    Mr. Gould. We use the authority of the Aviation 
Transportation Security Act, which requires us to positively 
identify passengers who are boarding aircraft and proceeding 
through the checkpoint.
    Mr. Amash. And can you tell me what statutory authority TSA 
uses for face recognition technology on domestic travelers 
generally?
    Mr. Gould. Sir, I would say it was the same authority, the 
Aviation Transportation Security Act.
    Mr. Amash. And does TSA have any plans for real-time face 
recognition technology in airports?
    Mr. Gould. Sir, if you mean real-time as facial capture and 
matching at the checkpoint, then yes, that is what we are 
pursuing.
    Mr. Amash. And has TSA considered the privacy implications 
of real-time face recognition technology?
    Mr. Gould. Yes, sir, absolutely. We have done privacy 
impact assessments associated with this. There is signage at 
the airports that clearly identifies that we are using facial 
recognition technology in a pilot manner to identify 
passengers, and we don't store any photographs on the camera.
    Mr. Amash. And will travelers be able to opt out?
    Mr. Gould. Yes, sir. Travelers will always have the 
opportunity to not participate in the program.
    Mr. Amash. And you think that is true now and into the 
foreseeable future?
    Mr. Gould. Yes, sir.
    Mr. Amash. Do you have plans to implement face recognition 
technology at additional points in airports besides gates or 
security checkpoints?
    Mr. Gould. We are prototyping facial recognition technology 
at bag drops. So when you drop a bag off to be placed on an 
aircraft, we can use facial technology--we are exploring the 
use of facial technology there. And then for TSA purposes, the 
only other location is the checkpoint.
    Mr. Amash. Okay. Thanks.
    I yield----
    Mr. Meadows. Will the gentleman yield?
    Mr. Amash. Yes, I yield to Mr. Meadows.
    Mr. Meadows. So, Mr. Gould, let me come back. If you are 
doing it at bag drops, that is not a one-on-one comparison? I 
mean, what are you comparing it to? If you are looking at 
checking facial recognition at bag drops, there wouldn't be 
necessarily the identification that you were talking about 
earlier. What pilot program are you working with with that?
    Mr. Gould. The pilot program in place right now is with 
Delta Airlines and CBP and TSA at Atlanta's Terminal F, and it 
is a matching of the passenger's bag against their 
identification or their photograph in the CBP TVS system.
    Mr. Meadows. Well, that contradicts your earlier testimony, 
Mr. Gould, because what you said that you were doing is just 
checking the biometrics within the identification against a 
facial recognition, but it sounds like you are doing a lot more 
than that.
    Mr. Gould. Sir, this is for international travelers.
    Mr. Meadows. No, I understand. I just came back--I came 
through JFK. I didn't see any of the signs that you are talking 
about, all right? So I guess what I am saying is what statutory 
authority gives you the ability to do that? You keep referring 
to 2001. I actually am on the Transportation Committee, and I 
can tell you we never envisioned any of this. I am looking at 
the very statute myself here. How can you look and suggest that 
the statute gives you the ability to invade the privacy of 
American citizens?
    Chairman Cummings. The gentleman's time has expired, but 
you may answer the question.
    Mr. Gould. I am sorry, sir?
    Chairman Cummings. You may answer the question.
    Mr. Gould. Okay, thank you.
    Sir, with respect to the pilot in Atlanta, it is 
international travelers, and the purpose of that pilot is to 
positively match, using biometrics, the passenger to that bag 
at the bag drop. The traveler's photograph is captured, image 
is captured. It is transmitted to the CBP TVS system for 
matching, and it returns a match result. That is it, no privacy 
information or any other data associated with it.
    With respect to JFK, there is no pilot going on there right 
now. It is solely in Atlanta in Terminal F.
    Chairman Cummings. Ms. Hill?
    Ms. Hill. Thank you, Mr. Chairman.
    I want to follow up, actually, on several of these 
questions.
    Mr. Gould, does the TSA say how many American citizens' 
faces it captured during the pilot? And if so, do you know the 
numbers?
    Mr. Gould. No, ma'am, I don't know the numbers. I would 
have to submit that for the record.
    Ms. Hill. Yes, please. Also, TSA uses the facial 
recognition systems of Customs and Border Protection, CBP, 
which may not restrict how private corporations use passenger 
data. According to an August 2018 article from the New York 
Times, CBP ``has said it cannot control how the companies use 
the data because they are not collecting photographs on CBP's 
behalf.'' An official stated that ``he believed that commercial 
carriers had no interest in keeping or retaining the biometric 
data they collect, and that the airlines have said they are not 
doing so. But if they did, he said, that would really be up to 
them. TSA itself has said that it intends to pursue innovative 
models of public-private partnerships to drive collaboration 
and co-investment.''
    Mr. Gould, if TSA uses CBP systems to scan the faces of 
American citizens, how can it ensure that the private data of 
these passengers is not stored or sold by private airlines?
    Mr. Gould. Ma'am, I would have to refer to CBP for any 
assessment of the security and the privacy of that system.
    With respect to the public-private partnership, when we 
refer to that we are talking about partnering with industry, 
airlines and airports solely on the front-end capture system, 
so basically the cameras that are being utilized.
    Ms. Hill. But you talk about co-investment.
    Mr. Gould. So, in accordance with TSA's authorities, we are 
allowed to enter into agreements with airports and/or airlines 
to procure equipment on our behalf, and that equipment would be 
the camera system only, solely for the capture. The matching 
and the data base, that is a government system, and right now 
we are using the CBP TVS system.
    Ms. Hill. So have you thought about how you would ensure 
that the private data is not stored or sold by airlines?
    Mr. Gould. Absolutely, ma'am. First of all, when your photo 
is captured at a checkpoint in the pilots, it is encrypted and 
sent off for matching, and the data base that CBP uses, the TVS 
system, that is cyber-secure in accordance with applicable 
standards, and we do not transfer any personally identifiable 
information between us and the airlines.
    Ms. Hill. Dr. Goodwin, what regulations do you believe 
should be put in place in order to prevent the abuse of 
passenger data by airlines and other private companies?
    Ms. Goodwin. So, as you know, GAO, we wouldn't provide an 
answer to that question. The way we think about it is we have 
issued recommendations related to privacy and accuracy, and if 
those recommendations are implemented, that would actually go a 
long way to meeting some of the needs of the public, as well as 
the needs of this committee.
    Ms. Hill. Sorry. Can you clarify?
    Ms. Goodwin. So we have those six recommendations related 
to privacy and accuracy. Only one has been implemented. So we 
believe that if the remaining five are implemented, that would 
actually go a long way to answering the questions and 
addressing some of the concerns around privacy for the citizens 
and accuracy for the data that are being collected.
    Ms. Hill. And, Mr. Gould, do you have issues with those 
recommendations? Is there something that is preventing TSA from 
incorporating those?
    Mr. Gould. So, as I stated before, in accordance with 
Section 1919 of the TSA Modernization Act, we have executed in 
conjunction with CBP a thorough review of the privacy impacts 
associated with biometrics collection or biometrics 
identification at the airport, as well as any error rates and 
security concerns associated with that, and that report will be 
coming from DHS in the near future.
    Ms. Hill. Great.
    The Washington Post further stated that around 25,000 
passengers traveled through Atlanta's airport pilot program 
terminal each week. According to the article, ``only about two 
percent of travelers opt out.'' Even assuming that the systems 
used by TSA are 99 percent accurate, which they are likely not, 
the high volume of passenger traffic would still mean that at 
least hundreds of passengers are inaccurately identified each 
week.
    Does TSA keep metrics on the number of American citizens 
that are inaccurately identified?
    Mr. Gould. In accordance with our analysis, the pilots were 
capturing match rates and non-match rates. With respect to the 
actual numbers of Americans that do not return a positive match 
rate, I would have to submit something for the record.
    Ms. Hill. Please do.
    And, Dr. Romine, what would be the most effective way for 
TSA to measure how accurate its facial recognition systems are 
when testing the identity of American citizens?
    Mr. Romine. We are not expert in testing full systems. We 
test algorithms. We evaluate those algorithms for accuracy of 
matching. The entire system is something that is a little bit 
outside my purview.
    Ms. Hill. Okay. I personally understand the value of this 
technology, but I think we really need to have some clear 
regulations and guidance that are essential to prevent the 
abuse of data collected and to protect our privacy. While I 
appreciate the GAO's recommendations, I think we are going to 
need some more teeth to ensure that those are implemented.
    Thank you. I yield back.
    Chairman Cummings. Mr. Hice?
    Mr. Hice. I will let Mr. Roy go first.
    Chairman Cummings. Mr. Roy?
    Mr. Roy. Thank you, Mr. Chairman. I appreciate it.
    Thank you to my colleague from Georgia for letting me go 
now.
    I appreciate all you all taking the time to testify today. 
I appreciate your service to our Nation. As a former Federal 
prosecutor, I appreciate the commitment to law enforcement and 
what you are trying to do to keep the United States and its 
citizens safe. I do think that there have been some very 
important issues involving privacy raised here today on both 
sides of the aisle, and I appreciate you all addressing those 
concerns.
    One of the lines of questions was my colleague from 
Michigan, Congressman Amash, asking a little bit about real-
time use of this technology, and I wanted to explore that just 
a little bit further and maybe even ask a simple, maybe a not 
all that informed question.
    Is the U.S. Government in any way, based on the knowledge 
of anybody at the table, using facial recognition technology on 
American citizens without their knowledge today? And if so, 
where and how?
    Ms. Del Greco?
    Ms. Del Greco. The FBI systems are not designed for real-
time capture of the American people.
    Mr. Roy. So to your knowledge, the U.S. Government, from 
your base of knowledge, is not using facial recognition 
technology to capture information on American citizens, using 
it and processing it without their knowledge?
    Ms. Del Greco. The FBI does not. I can speak on behalf of 
the FBI. We require it for criminal purposes only, in 
accordance with a law enforcement purpose.
    Mr. Roy. Mr. Gould?
    Mr. Gould. Sir, with respect to TSA, we are doing it solely 
with the passengers' consent. The cameras are visible, and the 
passenger needs to actually assume a position in front of the 
camera for accurate facial capture.
    Mr. Roy. Any other witnesses? Dr. Goodwin, are you aware of 
anything?
    Ms. Goodwin. We are not. In the work that we have done, 
that has been beyond the scope.
    Mr. Roy. Okay.
    Sir?
    Mr. Romine. It is also outside of NIST's scope.
    Mr. Roy. Do you all know of any plans to use that 
technology without consent of an American citizen?
    Mr. Gould. Not with respect to TSA, sir.
    Mr. Roy. FBI?
    Ms. Del Greco. The FBI will not develop technology for CJIS 
Division outside of a criminal purpose, sir.
    Mr. Roy. Ms. Del Greco, let me ask you a quick question. 
You said in response to Mr. Amash in one of his questions about 
real-time use, you said ``not for criminal justice purposes.'' 
Can you expand on that caveat?
    Ms. Del Greco. That we only collect a photo in conjunction 
with criminal justice. Our law enforcement partners, the state 
and local and Federal entities, must be authorized to have 
access to our system, and they must have a criminal justice 
purpose in order to search our system, the NGI Interstate Photo 
System.
    Mr. Roy. I would like to yield to my colleague from 
Louisiana.
    Mr. Higgins. I thank my colleague for yielding a bit of his 
time.
    Ms. Del Greco, according to FBI records, in 2017 10,554,985 
criminal arrests were made, and you ran about a 59 percent 
conviction rate. I think that this body and the American people 
must be reminded that every American that has been arrested is 
arrested by probable cause. The standards of probable cause are 
much less than that of conviction. Is that true?
    Ms. Del Greco. That is correct, sir.
    Mr. Higgins. Would the totality of circumstances and 
corroborative evidence be used in the course of a criminal 
investigation, and any technology, including facial recognition 
technology, would that be added as a tool in the toolbox to add 
perhaps a strength or a weakness to that case file?
    Ms. Del Greco. State and local entities have the option to 
submit a probe photo in accordance with a criminal 
investigation.
    Mr. Higgins. Okay. Moving quickly, one of my colleagues 
mentioned that there was a 70 percent match on a subject and 
that is the subject that was arrested, versus a 90 percent 
match that was not arrested. Does not arrested mean not 
investigated?
    Ms. Del Greco. I am not aware of that, sir. We provide 
candidates back----
    Mr. Higgins. During the course of a regular criminal 
investigation, is reasonable suspicion grounds for 
investigation of any citizen?
    Ms. Del Greco. I am not a law enforcement officer, sir.
    Mr. Higgins. All right. I am, and it is.
    Probable cause is the standard for arrest. Beyond a 
reasonable doubt or the shadow of a doubt is the standard for 
conviction.
    I very much appreciate everyone's testimony today.
    This is an emerging technology. Mr. Chairman, Mr. Ranking 
Member, we should watch this technology closely and protect the 
rights of American citizens. We should also recognize that this 
can be a very valuable tool for law enforcement and to fight 
crime in our country, and I yield.
    Chairman Cummings. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman.
    Look, we are not Luddites here. We recognize, I think, 
advancements that science is making. Perhaps this particular 
facial recognition advancement, such as it is, is not ready for 
prime time, and that is what we are trying to ascertain here, 
and yet it is being used as if it were.
    The FBI, Dr. Goodwin, uses this facial recognition system 
but cannot tell us, we have learned today, much about its 
accuracy. And the GAO--and we rely heavily on the GAO, of 
course--has said DOJ officials stated there is value in 
searching all available external data bases regardless of the 
level of accuracy. That is where my question goes, regardless 
of the level of accuracy.
    The FBI has said, Ms. Del Greco, that the facial 
recognition tool is used for investigative leads only. Now, 
what is the value of searching inaccurate data bases? I can see 
the downside: mistaken identity, misidentification. Why is 
there any value in searching whatever data base is available to 
you based on investigative leads only?
    Ms. Del Greco. The FBI uses our trained face examiners to 
look at candidates that come back on a search for an FBI open 
investigation, and it evaluates all of the candidates, and it 
provides the search back.
    Ms. Norton. Can an investigative lead lead to conviction?
    Ms. Del Greco. The FBI field office and the FBI agent is 
the one that is primary to that case. They know all the details 
about the case. We would not be making that decision. It would 
be up to them to use that as a tool.
    Ms. Norton. So it could, as far as you know, lead to a 
conviction, or maybe not.
    Ms. Del Greco. That is correct, ma'am. I agree.
    Ms. Norton. So not only could it lead to a conviction, it 
could lead to inaccurate convictions.
    Ms. Del Greco. We hope not, ma'am. We hope not.
    Ms. Norton. Yes, it could lead to a conviction, but perhaps 
it would be inaccurate since we are using the data base for 
investigative purposes as well.
    Now, here is what bothers me most. There has been a 
prominent study done which included an FBI expert, by the way, 
Ms. Del Greco. It found that leading facial recognition 
algorithms, like ones sold by Amazon and Microsoft and IBM, 
were more inaccurate when used on darker-skinned individuals, 
women, and people aged 18 to 30, when compared with white men. 
So we do have some indication when we look at what our 
population is.
    Dr. Romine, do you agree with the findings of this study?
    Mr. Romine. There are demographic effects. This is very 
time-dependent. It depends on the time at which this was done 
and the algorithms that were evaluated. NIST is prepared to 
release demographic information or----
    Ms. Norton. My concern is that there is excessive, some 
would say over-policing in minority communities. I understand 
why. But it has resulted in African Americans being 
incarcerated at four times the rate of white Americans. African 
Americans are over-represented in mug shots that some facial 
recognition systems scan for potential matches.
    Ms. Del Greco, do you agree that both the presence, the 
overrepresentation of African Americans in mug shot photos, the 
lower accuracy rates that facial recognition systems have when 
assessing darker-skinned people such as African Americans, that 
it is possible that false convictions could result from the 
FBI's use of these external systems if they are not audited?
    Chairman Cummings. The gentle lady's time has expired. You 
may answer the question.
    Ms. Del Greco. The FBI retains photos in our repository, 
mug shot photos, but they are associated with a criminal arrest 
and a ten print fingerprint. We do provide a candidate----
    Ms. Norton. Are they audited?
    Ms. Del Greco. Yes, they are, ma'am. We have a robust audit 
process with the state, Federal, local, and tribal agencies. We 
send auditors out to those agencies and we look at security 
requirements in accordance with the FBI CJIS security. We look 
at the policies, the procedures, and the standards to ensure 
that they have the required training and they are following our 
process.
    Chairman Cummings. Mr. Hice?
    Mr. Hice. Thank you, Mr. Chairman.
    I think we all are very much aware of the effects of 
surveillance on people. Their behavior certainly changes. Non-
criminal speech, non-criminal behavior, it alters the way 
people behave when there is surveillance. Just even as a pastor 
for many years, I know with the prying eyes of the IRS and how 
that has had a chilling effect on speech, even within non-
profit organizations and churches. So this is an extremely 
serious thing when we know the possibility of surveillance is 
out there.
    Ms. Del Greco, has the FBI ever--you mentioned a while ago 
the FACE Services Unit or something to that effect. Does that 
particular unit or any other unit in the FBI farm for images, 
photographs, other I.D.-type information on American citizens 
through social media or whatever other platform?
    Ms. Del Greco. No, we do not, sir.
    Mr. Hice. Does the FBI, have they ever purchased from a 
third-party contract or wherever else images, photographs, I.D. 
information?
    Ms. Del Greco. No, sir. The FBI retains only criminal mug 
shot photos.
    Mr. Hice. Okay.
    Mr. Chairman, I would like to ask to be submitted to the 
record an article by Joseph Cox of Vice News, ``SocioSpyder: 
The Tool Bought by the FBI to Monitor Social Media.''
    Chairman Cummings. Without objection, so ordered.
    Mr. Hice. I would also like to submit for the record an 
archived copy of the sociospyder.com Web domain that states 
that this software is used for automated collection of social 
media user data. I would like that to be submitted.
    Chairman Cummings. Without objection, so ordered.
    Mr. Hice. Thank you, Mr. Chairman.
    And finally also, I would like to submit to the record the 
purchase of order logs of the FBI, SocioSpyder software and 
service agreement and individual user license, purchased by 
Allied Associates International.
    Chairman Cummings. Without objection, so ordered.
    Mr. Hice. Thank you.
    Ms. Del Greco, there has been software purchased by the 
FBI, and I don't know where you are coming from to not be aware 
of that.
    Ms. Del Greco. Sir, I would have to find out from the other 
entities within the FBI. I represent the technology that is 
used for criminal justice purposes at the CJIS Division.
    Mr. Hice. So there is a whole other avenue of facial 
recognition technology taking place within the FBI that you 
know nothing about.
    Ms. Del Greco. Not that I am aware of, sir.
    Mr. Hice. Well, evidently, if you don't know anything about 
this, there is.
    Ms. Del Greco. We can look into it, sir.
    Mr. Hice. Okay, we most certainly can. So are you saying, 
then, that to your knowledge there is no software--although 
there is--that is being used by the FBI to collect information 
on U.S. citizens?
    Ms. Del Greco. I am only aware of the use of our system for 
criminal justice purposes, sir.
    Mr. Hice. Okay, and your system would include the systems 
of the driver's license data base of multiple states?
    Ms. Del Greco. Our system does not retain driver's license 
photos.
    Mr. Hice. But you have access to it. So there are two 
different systems. You have your internal system, and then you 
have this system that you can access.
    Ms. Del Greco. We do not have direct access. We----
    Mr. Hice. A 2016 study by Georgetown's Law Center on 
Privacy and Technology found that you do have access to that, a 
total of 117 million Americans, which comes to about one out of 
every two adults that you have access to that information.
    Ms. Del Greco. That is incorrect, sir. We disagree with 
that. The FBI, through an active FBI investigation, can submit 
a probe photo to our----
    Mr. Hice. So how many do you have access to?
    Ms. Del Greco. We can submit a probe photo to the state 
DMVs, and they provide a candidate back. We do not have access 
to those photos.
    Mr. Hice. Well, the study disagrees with you. There is 
really a pre-crime data base, if you will.
    I have a little bit of time. I do want to yield to the 
Ranking Member with the remaining time. Thank you.
    Mr. Jordan. I thank the gentleman.
    Ms. Del Greco, just to go to this real-time surveillance, 
so has the FBI or any other Federal agency, to your knowledge, 
ever used real-time surveillance, sort of a continuous look at 
a group of people at some location? Has that ever been done?
    Ms. Del Greco. No, sir, not to my knowledge.
    Mr. Jordan. And to your knowledge, no other Federal agency 
has done that, the IRS, any other agency has not done that 
either? Do you know?
    Ms. Del Greco. I cannot speak on behalf of the other 
agencies, sir.
    Mr. Jordan. And let me just, real quick if I could, Mr. 
Chairman, the numbers, Dr. Goodwin. What number of photos does 
the FBI have access to in just their data base?
    Ms. Goodwin. In just their data base, a little over 20-
plus, 36 million.
    Mr. Jordan. Thirty-six million. And then in the data bases 
that they can then send information to and that are screened 
and used and there is interface and interaction with at the 
state level, what is the total number of photos in all those 
data bases?
    Ms. Goodwin. So access to photos across all the 
repositories, about 640 million.
    Mr. Jordan. Six-hundred and forty million photos. There are 
only 330 million people in the country. Wow. The FBI has access 
to 640 million photos, and this is the FBI that didn't comply 
with the five things they were supposed to comply with when 
they set up the system, and they are still not in compliance 
with.
    Ms. Goodwin. So if you think about the face services 
system, and then all of the searchable repositories, that is 
over 640 million photos, and the FBI really only searches for 
criminal. They are looking for the criminal photos. They are 
looking through all of this for their criminal investigations. 
But across all the repositories, we are talking over 600 
million.
    Mr. Jordan. Thank you, that is very helpful. I appreciate 
that.
    Chairman Cummings. We are talking about people who have 
been arrested, right? Not necessarily convicted. Is that right, 
Ms. Del Greco?
    Ms. Del Greco. Arrested, by searching these data bases, 
sir?
    Chairman Cummings. Yes, ma'am.
    Ms. Del Greco. We would have to go back and do a survey. We 
do every 90 days go out to our state and local agencies to see 
if there is any input they can provide to us. We do know there 
are arrests made, but it is not on the identification of the 
photo. It is a tool to be part of the case that they have.
    Ms. Goodwin. If I could add one more thing about the 640 
million, most of those are civil photos, but those are 
available----
    Mr. Jordan. That is what scares me.
    Chairman Cummings. Most of them--say that again?
    Ms. Goodwin. Those are primarily civil photos. So we are 
talking about passports and driver's licenses.
    Mr. Jordan. Yes, sure.
    Chairman Cummings. Just regular, everyday people. Wow.
    Ms. Kelly?
    Ms. Kelly. Thank you, Mr. Chairman, for holding this second 
hearing on facial recognition.
    With the government's use of facial recognition increasing, 
it is important that this nascent technology is not rushed to 
market and that all communities are treated equally and fairly.
    Mr. Romine, in your testimony you mentioned the report that 
is due for publication this fall is on demographic effects and 
mug shots. Can you talk a little bit about this report and your 
objectives?
    Mr. Romine. The objective is to ensure complete 
transparency with regard to the performance of the algorithms 
that we evaluate and to see if we can use rigorous statistical 
analysis to demonstrate the presence or absence of demographic 
effects. That statistical analysis has not been completed yet. 
We have preliminary data that have suggested that demographic 
effects such as difference in age across ages, difference in 
sex, and difference in race can affect or can have differences 
in terms of the performance of the algorithms. However, the 
increased performance across the board for the best-performing 
algorithms is, we expect, diminishing that effect overall. In 
the fall we will have the final report of demographic effects.
    Ms. Kelly. I commend you for looking into this. When you 
are doing evaluations for companies, are you testing for 
demographic consistency?
    Mr. Romine. We do--we don't test for specific companies on 
their behalf. We test or evaluate the algorithms that are 
submitted to us through this voluntary program. So we don't 
test specifically for algorithms' demographic effects. We are 
talking about the demographic effects across all of the 
algorithms that are submitted.
    Ms. Kelly. And then what are you doing to make sure that no 
categories of people are suffering from lower rates of 
accuracy?
    Mr. Romine. The best we can do in that is to ensure 
transparency and public access to data about the level of the 
demographic effects. We have no regulatory authority to do 
anything about that other than to just make the data available 
for policymakers to make appropriate decisions.
    Ms. Kelly. Did you have a comment about that? Okay.
    Mr. Gould, TSA has been partnering with CBP on biometrics 
for international travelers. How much training did operators 
receive prior to beginning the pilot program at JFK and LAX?
    Mr. Gould. The training was significant. I would say 
multiple days of training in how the system works, how to 
analyze the match results, and how to effectively use the 
system.
    Ms. Kelly. What were the top complaints that were received 
during this pilot program?
    Mr. Gould. The complaints from the public, ma'am?
    Ms. Kelly. The top complaints, yes.
    Mr. Gould. Ma'am, I am really honestly not aware of any 
specific category of complaints that rose to the surface. In 
general, the public seems to enjoy the enhanced passenger 
experience by using biometrics.
    Ms. Kelly. Any complaints by employees?
    Mr. Gould. I would say employees in general, when you 
introduce new technology, the change can be somewhat 
challenging to use, but having just been down to Atlanta and 
talked to many of the operators down there, as well as the 
Federal security director in charge of the airport, they 
embrace the technology and find it to be a significant 
enhancement to security at the checkpoint.
    Ms. Kelly. Okay. The report on disparities is due on July 
2d, 2019. Are you on schedule for publication, and are there 
any previews that you can share?
    Mr. Gould. I don't have any previews available that I can 
share. The report has been completed in accordance with Section 
1919 of the TSA Modernization Act. The report has been compiled 
and it is on its way through the Department to Congress. Yes, 
ma'am.
    Ms. Kelly. Thank you very much, and I yield back.
    Mr. Gould. Thank you.
    Chairman Cummings. Thank you very much.
    Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Del Greco, I am not going to beat up on you, but I am 
going to come back and give you two pieces of advice. One is--
and it is the same advice I give to every witness who sits in 
that seat right next to GAO. If GAO isn't happy, I am not 
happy. So here is what I would recommend on the five 
outstanding things, that you work with GAO to close those out, 
the five recommendations that they have. Are you willing to do 
that?
    Ms. Del Greco. Absolutely, sir.
    Mr. Meadows. All right. The fact that you only closed one 
of them out last week prior to this hearing is what I 
understand--is that not accurate? I could tell you were 
smiling, so you didn't agree with that statement.
    Ms. Del Greco. Not that I disagree. We have been completing 
audits. We completed 14 of the 21, and I think GAO felt that 
that was enough to satisfy the issue.
    Mr. Meadows. All right. Well, Dr. Goodwin, if you will 
report back to this committee, what I would like in the next 60 
days is the progress we are making.
    Ms. Del Greco, that is as gracious as I can be when it 
comes to that. Listen, we want you to have all the tools to 
accurately do what you need to do.
    The second thing that I would mention is you mentioned 
about not having any real-time systems, and yet we had 
testimony just a couple of weeks ago from Georgetown that 
indicated the Chicago Police Department, the Detroit Police 
Department has real time. They purchased it where they are 
actually taking real-time images. Do they ping the FBI to 
validate what they picked up in real time with what you have in 
your data base?
    Ms. Del Greco. I mean, there are authorized law enforcement 
entities that have access to our system. We train them. We 
expect them to follow our policies. We audit them.
    Mr. Meadows. I get that. But what I am saying is that we 
are concerned about real time, and you have police departments 
in Chicago and Detroit that are doing real-time surveillance 
and then getting you to authenticate that through your data 
base; is that correct?
    Ms. Del Greco. They submit a probe photo in accordance with 
a criminal----
    Mr. Meadows. From real-time surveillance.
    Ms. Del Greco. Not to my knowledge. I am not aware of that.
    Mr. Meadows. Well, that is opposite of the testimony. So 
what I want you to do--and did they purchase that real-time 
surveillance technology with Federal funds? If you will get 
back to the committee on that, can you do that?
    Ms. Del Greco. Yes, sir.
    Mr. Meadows. All right. Thank you.
    Mr. Gould, I am going to come to you, because some of your 
testimony--actually, I have been to Dulles where we looked at 
CBP, actually looking at real-time facial recognition when 
travelers come in and out. So I guess you are saying that right 
now you are not doing that at Dulles anymore; is that correct? 
Because you mentioned only Atlanta and----
    Mr. Gould. Sir, I can't comment on the CBP program, because 
they do it for entering and exit purposes for international 
travel. TSA is not doing it there.
    Mr. Meadows. Okay, so here is what I would recommend. Out 
of all the priorities that TSA has, and all the inefficiencies 
that actually this committee and other committees have, facial 
recognition certainly cannot be the top priority in terms of 
what we are looking at to make sure our traveling public is 
safer. Would you say that that is the top priority that you 
have in terms of your Achilles heel?
    Mr. Gould. Sir, positive identification of travelers----
    Mr. Meadows. That is not the question I asked. Is that the 
top priority? Yes or no?
    Mr. Gould. That is one of multiple significant priorities 
for TSA.
    Mr. Meadows. So what is your top priority?
    Mr. Gould. I would say----
    Mr. Meadows. There can only be one top, Mr. Gould. This is 
a softball question.
    Mr. Gould. I would say at this point enhanced property 
screening at the checkpoint, CT machines for the checkpoint to 
do a better assessment of carry-on baggage.
    Mr. Meadows. All right. So you mentioned the fact that you 
potentially have actually taken photos of American citizens 
dropping off their bags; is that correct? In my questioning 
earlier you talked about the fact that you might have--part of 
TSA is looking at the screening process where it is not just a 
one-on-one, where you are actually taking photos of people at 
bag drops; is that correct?
    Mr. Gould. Only if they choose to participate, and only in 
one location, and that is Terminal F in Atlanta.
    Mr. Meadows. All right. So you can guarantee, because I 
have flown out of Terminal--well, Concourse F, I think is what 
it is. But I have flown out of that on Delta. So you can 
guarantee that I was not photographed? Because I have never 
given anybody my permission on international travel, to my 
knowledge. So can you guarantee that I am not picked up in 
that?
    Mr. Gould. Unless you were photographed while you were 
dropping off the bag at Delta----
    Mr. Meadows. But that is my question.
    Mr. Gould. No, sir.
    Mr. Meadows. My question is I gave no one permission to 
take my picture while I am dropping off my bag. I am an 
American citizen.
    Mr. Gould. Yes, sir.
    Mr. Meadows. What rights, what legal rights do you have to 
take that photo?
    Mr. Gould. You should not have been photographed.
    Mr. Meadows. Okay. And so you can't guarantee that I 
wasn't.
    So here is what I would recommend, Mr. Gould, is this. I am 
all about making sure that we have screening, but I can promise 
you I have gone through screening more than most Americans, and 
there are inefficiencies in TSA that have nothing to do with 
facial recognition. And until you get that right, I would 
suggest that you put this pilot program on hold, because I 
don't know of any appropriations that specifically allowed you 
to have this pilot program. Are you aware of any? Because you 
keep referring back to a 2001 law, and I am not aware of any 
appropriations that have given you the right to do this pilot 
program.
    Mr. Gould. I am not aware of any specific appropriation 
that----
    Mr. Meadows. Exactly. I would recommend that you stop it 
until you find out your statutory authority.
    I yield back.
    Chairman Cummings. Thank you very much.
    Before we go to Ms. Lawrence, let me follow up on the 
gentleman's request of Ms. Del Greco and Dr. Goodwin. One thing 
that I have noticed after being on this committee for 23 years 
is that what happens so often is that people say they are going 
to get things done, and they never get done.
    So Mr. Meadows, in the spirit of efficiency and 
effectiveness, I think has made a very reasonable request that 
Ms. Del Greco and Dr. Goodwin get together so that we can get 
some of these items resolved. So I am going to call you all 
back in about two months maybe. I will figure it out. Because I 
am worried that this is going to go on and on, and in the 
meantime I am sure that we will be able to come up with some 
bipartisan solutions. But the American citizens are, I think, 
being placed in jeopardy as a result of a system that is not 
ready for prime time.
    So we will call you all back. I hope that you all get 
together as soon as possible. Again, I say this because I have 
seen it over and over again, that we will be in the same 
position, or worse, in three years, five years, 10 years. By 
that time, so many citizens may have been subjected to 
something that they should not be.
    With that, I call on----
    Mr. Meadows. Mr. Chairman, I just want to say I appreciate 
your leadership on that and appreciate your follow up.
    Chairman Cummings. No problem.
    I now call on the distinguished lady from Michigan, Ms. 
Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chair.
    Dr. Romine, do you think that third-party testing is 
important for the safe deployment of facial recognition 
technology? And I want you to know that I sit on the Criminal 
Justice Appropriations Committee, and funding for NIST is 
something that I have a responsibility for. So I would really 
like the response to these questions.
    Mr. Romine. I think independent assessment of new 
technologies, particularly if they are going to be used in 
certain ways, is an essential part and one of the things we are 
privileged to do as NIST.
    Mrs. Lawrence. And how dependent are government agencies on 
NIST's findings? How dependent?
    Mr. Romine. It is hard for me to assess that. I think we 
certainly have collaborative relationships with DHS, with FBI, 
with other Federal agencies. Part of our statutory requirement 
is working with other agencies on advancement of technologies 
and evaluation of technologies.
    Mrs. Lawrence. Is there a way that we can move forward that 
you can do an assessment so that we would know when we are 
talking about the findings, which is a critical factor right 
now? Is there a way that we can move forward so that we can 
assess what is the role that you play, that is played by the 
third party?
    Mr. Romine. With respect to facial recognition, we have 
ongoing evaluations on a rolling basis. So participants can 
submit algorithms at any time, and we continue to provide open, 
public, transparent evaluation methodologies so that everyone, 
Federal agencies and the public, the private sector, can see 
the results of our testing and make determinations on 
effectiveness of the algorithms.
    Mrs. Lawrence. Through the Chair, I would like to review 
those.
    Which organizations are currently equipped to accurately 
test new facial recognition technologies?
    Mr. Romine. We are certainly equipped to do that at NIST. I 
don't have information about other entities that might also be 
equipped to do that.
    Mrs. Lawrence. Do you believe that NIST currently has 
significant funding and resources to carry out your work as the 
standard bearer of the facial recognition industry?
    Mr. Romine. Yes. We have sufficient resources today to be 
able to execute the program that we have in biometrics.
    Mrs. Lawrence. To ``carry out,'' that is the word that you 
are saying. As this is evolving and we are looking at the 
challenges, do you have enough funding for the R&D and for the 
checks and balances for you to be the standard bearer of the 
facial recognition industry? Nothing frustrates me more than 
for you to come before Congress and say I have everything I 
need, and then when you don't do the job, ``Well, we didn't 
have the funding.''
    So I am asking this question, and I need you to be very 
honest with me.
    Mr. Romine. I would make two remarks. One is we have a long 
track record of delivering high-quality evaluations in 
biometrics for nearly 60 years. The second part of it is it is 
a bit awkward for me in front of Congress, or any Federal 
official, to speak about funding levels. I will just make the 
comment that any research organization can do more with more, 
and I will leave it at that.
    Mrs. Lawrence. Well, for me to do my job, I have to get 
past accurate, and you have to have a plan and directive.
    I just want to ask if anyone on the panel wanted to comment 
on the organizations and the ability to accurately test new 
facial recognition technologies. Are there any comments from 
any of the others of you? No.
    Thank you.
    Chairman Cummings. Thank you very much.
    Ms. Miller?
    Mrs. Miller. Thank you, Chairman Cummings and Ranking 
Member Jordan.
    And thank you all for being here today.
    America has been a leader and an innovator in the 
technology sector. American companies have pioneered many of 
the technologies deployed around the world. However, as this 
sector continues to grow, we need to ensure that our government 
agencies are accurately deploying this technology within the 
bounds of law.
    This past week I was in China and I saw facial recognition 
technology deployed on a massive scale from the moment I was 
getting ready to get on the airplane. There were cameras 
everywhere. Alibaba recently instituted a program where 
customers can ``smile to pay'' using facial recognition 
technology. I also saw cameras at street crossings that can 
pinpoint certain individuals who are breaking traffic laws. It 
was rather daunting to see the government shaming individuals 
so publicly, which is a stark contrast to what our privacy and 
our liberty is in America. I mean, they would flash your face 
right there.
    Seeing this use of facial recognition technology in China 
poses many questions to the United States about the appropriate 
use of this technology.
    Ms. Goodwin, Dr. Goodwin, what steps can our government 
take to ensure facial recognition technology is being deployed 
in a way that is accurate?
    Ms. Goodwin. Thank you for that question. I will always go 
back to the recommendations that we made when we did this work 
a few years ago that DOJ is still working through. Accuracy and 
transparency are key and vital to when we are talking about 
this technology, as well as just making certain that we are 
protecting privacy rights.
    To go back to the recommendations, we want DOJ to pay more 
attention to the list sizes that they are testing. We want them 
to regularly assess whether the NGI-IPS, whether that 
information is accurate. We also want them to assess and have 
some understanding of whether the information that they are 
getting from their external partners is also accurate.
    Mrs. Miller. Thank you.
    Ms. Del Greco, to your knowledge, has the FBI had any 
misidentifications of individuals when utilizing facial 
recognition technology?
    Ms. Del Greco. I would like to go back to the statement by 
Dr. Goodwin. We did test all--since the last hearing in 2017, 
the FBI did test all of the list sizes and saw improvements in 
the accuracy. We conducted the Facial Recognition Vendor Test 
with NIST and are implementing a new algorithm, and we work 
continuously with our state and Federal and local partners on 
their use of our system. And we have also commissioned NIST to 
do a 2019 and onward--it is called an ongoing facial 
recognition test where we will be able to test the accuracy of 
the system yearly.
    With regard to misidentification, I am not aware of any. 
Thank you.
    Mrs. Miller. Okay. Then basically my next question sort of 
falls right in line. Does the FBI have any plans to assess the 
rate of misidentifications generated by the Next-Generation 
Identification Interstate Photo System?
    Ms. Del Greco. So the system was designed to return two or 
more candidates. We provide an investigative lead back to law 
enforcement, the law enforcement entity. We require training by 
law enforcement to follow the NGI Interstate Policy and 
Implementation Guide and the Facial Identification Scientific 
Working Group Standards. So anyone running a search through the 
NGI Interstate Photo System must comply with the policies and 
standards, and they are audited by our FBI triennially.
    Mrs. Miller. Can you discuss the regulations in place that 
allow for an agent to utilize facial recognition technology and 
how strictly these regulations are enforced?
    Ms. Del Greco. I do know that for the FBI FACE Services 
Unit, an FBI field office must have an open assessment or an 
active investigation, and they must follow the Attorney General 
guidelines associated with that for us to be able to receive a 
probe photo from them and then submit the probe photo for a 
search.
    Mrs. Miller. Okay. And, Dr. Goodwin, to your knowledge, has 
the FBI been adhering to these regulations?
    Ms. Goodwin. We are working very closely with the FBI. If I 
could go back to something Ms. Del Greco said earlier, the 
testing that they are currently doing, the new information that 
they are providing, until we see that, we won't be closing our 
recommendations. We need to make certain that they are meeting 
the recommendations as we have put forward to them.
    Mrs. Miller. Okay, thank you.
    I yield back my time.
    Chairman Cummings. Mr. Gomez?
    Mr. Gomez. Thank you, Mr. Chairman.
    In the history of this country, we have always had this 
debate and this goal of trying to balance security with 
liberty. But in the era of facial recognition, I feel that we 
are stumbling into the future without really understanding how 
much liberty we are giving up for how much security. And it is 
really with that understanding that we have to set up 
guidelines that really dictate the use of this technology. So 
that is where my approach comes from.
    I have a lot of concerns regarding the false-positive rate 
of the technology, racial bias in the technology, gender bias, 
and even during--this is Pride Month, June is Pride Month. I 
think about the transgender and non-binary communities, and we 
have seen reports that show that black women are more likely to 
be misidentified than any other group. So when you layer on top 
of that the transgender, non-binary, black individual, what 
happens to those results?
    Mr. Romine, have you seen any data when it comes to the 
LGBTQ community, specifically the transgender community?
    Mr. Romine. We haven't done an analysis of accuracy rates 
for the transgender community. I am not sure how we would 
obtain the relevant data that we would use to do that, but I am 
aware of--I have been made aware of concerns in the transgender 
community about the potential for problematic use here.
    Mr. Gomez. Okay, I appreciate that. A lot of this also 
revolves around training. I know that NIST has pointed out and 
indicated that people are likely to believe computer-generated 
results, and those who aren't specially trained in face 
recognition have problems in identifying people they don't 
know, even if they perform face identifications as part of 
their work. So I am kind of keeping that in mind with the 
questions I am about to ask.
    First, Ms. Del Greco, what is the confidence level the FBI 
uses when it comes to running the program for the matches? Is 
it 80 percent? Is it 85 percent? Is it 95 percent? Is it 99 
percent?
    Ms. Del Greco. Our quoted accuracy rate--and we don't have 
matches. Let me clarify that first, sir. It is an investigative 
lead. It is two or more candidates. Our system is not built to 
respond to one response. Currently we have an 85 percent 
accuracy rate, although since the last hearing we----
    Mr. Gomez. That is not what I am asking. I am asking when 
you run the program, is it set to a high level that it needs to 
be accurate, to a 95 percent confidence level that the computer 
recognizes that this individual is 95 percent likely to be this 
person, or is it 80 percent? Like Amazon sells their program at 
80 percent default. What do you guys run your program at?
    Ms. Del Greco. Because we don't conduct an identification 
match, we don't look at that, sir. We do have an accuracy rate 
that we rely on, and we are currently implementing the new NIST 
Vendor Recognition Test results at 99.12 percent at a Rank 1, 
and it is 99.72 at a Rank 50. Those are the new--that is the 
new algorithm. But because it is not a true identification, we 
don't print that.
    Mr. Gomez. Okay. How does the FBI combat the human tendency 
to trust computer-generated results?
    Ms. Del Greco. Well, through the testing with NIST for 
sure, and then we also use other agencies and entities, 
universities, to provide testing results to us.
    Mr. Gomez. Do you train FBI personnel to perform facial 
comparisons of persons that are unknown to them?
    Ms. Del Greco. We receive probe photos from an active 
investigation from the FBI field office, an FBI agent, and they 
process that probe photo against our mug shot repository and 
receive a candidate back, and they are trained to evaluate.
    Mr. Gomez. Okay. So does the FBI train personnel on the 
potential inaccuracies and biases of facial recognition 
algorithms?
    Ms. Del Greco. Bias for the algorithm?
    Mr. Gomez. Yes.
    Ms. Del Greco. No, sir.
    Mr. Gomez. And why is that?
    Ms. Del Greco. Well, I think the employees--I mean, our 
system doesn't look at skin tone and features. It is a 
mathematical computation that comes back, and they are to look 
at the mathematical
    [inaudible] of the face.
    Mr. Gomez. Okay. I understand that you are basically 
describing facial recognition technology, but outside studies 
have shown that there is a bias when it comes to certain 
populations, that the error rate was a lot higher. Were you 
aware that the ACLU conducted a match of different Members of 
Congress at an 80 percent confidence interval level, and 
Members of Congress, including myself, were mismatched 
positively with mug shot photos?
    Ms. Del Greco. So the technology you are referencing to is 
an identification, and that is a match. We do not do that.
    Mr. Gomez. So you do broader.
    Ms. Del Greco. We do two to 50 candidates back. Our 
employees look at two candidates or more. We do not look at 
one-to-one match. It is not a match.
    Mr. Gomez. Okay. The FBI publishes that it trains third 
parties in a manner consistent with the guideline and 
recommendations outlined by the Facial Identification 
Scientific Working Group. The Facial Identification Scientific 
Working Group does not endorse a standard certified body of 
facial comparison. To compare, the ten print certification 
exists for personnel that analyze fingerprints. These programs 
require hours of training before a person can be certified. 
Since there is no formal certification process that the Working 
Group endorses, what standards does the FBI require of 
personnel that conduct facial analysis?
    Chairman Cummings. The gentleman's time has expired.
    Ms. Del Greco. So we did publish, and our own employees in 
the FACE Services have to comply with as well. We require all 
law enforcement entities that have access to the Interstate 
Photo System to follow the FBI's Policy and Implementation 
Guide and the Standards. They have to follow both.
    Chairman Cummings. The gentleman's time has expired. Thank 
you very much.
    Mr. Gomez. Thank you, Mr. Chairman.
    Chairman Cummings. Ms. Pressley?
    Ms. Pressley. Thank you, Mr. Chairman.
    It has been abundantly clear that facial recognition 
technology is flawed by design, unlawfully producing false 
matches due to algorithmic bias, including to everyday 
Americans, and in fact even Members of Congress, which 
Representative Gomez was one of those. He was just speaking to 
that. And there is growing and, I do believe, credible concern 
over the unauthorized use of this technology in public spaces 
such as airports, schools, and courthouses. These systems can 
certainly be subject to misuse and abuse by law enforcement. 
And we know that this technology is often used without consent.
    In that there are no real safeguards, there are no 
guardrails here, this is not fully developed, I just want to 
take a moment to say that I appreciate the leadership of the 
city of Summerville in my district, the Massachusetts Seventh, 
and Counselor Ben Campion and Mary Jo Corditone, who have 
passed a moratorium on this surveillance and on this software 
because of the fact that it is not developed and there are just 
no safeguards and no guardrails.
    Much of my line of questioning has already been asked, but 
I do just want to pick up on a couple of things in the space of 
consent because I wanted to just get some accuracy questions 
and just better understand for the purposes of the record here.
    Mr. Gould, do you keep data on how many people opt out of 
use for the facial recognition technology?
    Mr. Gould. Ma'am, I am not aware that we are actually 
collecting data on people who choose not to participate. I 
don't think we are collecting it. No, ma'am.
    Ms. Pressley. Okay. And so you have no idea how many people 
have opted out of previous TSA facial recognition pilot 
programs?
    Mr. Gould. No, ma'am.
    Ms. Pressley. Okay. Do you know how many passengers were 
notified of TSA's use of facial recognition technology?
    Mr. Gould. Ma'am, the notification at the airport consists 
of signage and also verbal instructions from the officers. So 
if they are in a lane where facial recognition technology is 
being piloted, I would say that 100 percent of the people are 
being made aware that it is being used. And they actually have 
to assume a suitable pose to actually have the camera capture 
their image.
    Ms. Pressley. So again, if this is based on signage, which 
in many ways can be arbitrary, how are folks even aware of the 
option to opt out, other than signage? And then how do they opt 
out?
    Mr. Gould. It is signage. It is announced. ``If you would 
like to have your picture taken for your identification, please 
stand right here. Otherwise, let us see your credential, your 
hand-carried identification.''
    Ms. Pressley. Okay. And is that communicated in multiple 
languages?
    Mr. Gould. For the purposes of the pilot, ma'am, it has not 
been communicated in multiple languages.
    Ms. Pressley. Okay. Again, just for the purposes of the 
record, I guess I over-spoke based on my own desires that the 
municipality in my district, the Massachusetts Seventh, 
Summerville passed an ordinance to ban but has not yet passed a 
moratorium, so I just wanted to correct that for the purposes 
of the record.
    Let me just for a moment just get back into some questions 
regarding government benchmarking for facial recognition. Dr. 
Romine or Dr. Goodwin, are you aware of how many government 
agencies use or possess facial recognition technology?
    Dr. Romine or Dr. Goodwin, or anyone.
    Mr. Romine. I don't know that answer.
    Ms. Goodwin. Nor do I. I also do want to put in front of 
everyone, the GAO does have ongoing work right now looking at 
the use of FRT at CBP and at TSA. So we will be following up on 
the information here.
    Ms. Pressley. Okay. So is there a stabilizing, like a 
comparative sort of benchmark as to the accuracy of these 
programs and how they compare with other programs?
    Ms. Goodwin. We are not aware of that as of yet.
    Ms. Pressley. Okay. Did NIST present any red flags to 
agencies about inaccuracies in any particular system used by a 
government agency that you are aware of?
    Mr. Romine. NIST doesn't interpret the scientific data in 
terms of red flags. Instead, we just ensure that everyone who 
is using facial recognition technology has access to the 
scientific data that we publish openly about the performance of 
the algorithms that have been voluntarily submitted to our 
program.
    Ms. Pressley. Okay. All right. I think that is it for me, 
for now. I yield. Thank you.
    Chairman Cummings. Let me just ask you this, Dr. Goodwin. 
You said there is ongoing work. What is happening there?
    Ms. Goodwin. So we have ongoing work at the request of both 
the Senate and the House Homeland Committees to look at the use 
of face recognition technology at DHS, and in particular TSA 
and CBP. We also have ongoing work looking at the commercial 
uses of face recognition technology.
    And if I could just kind of circle back to Congresswoman 
Pressley's comment about consent, there is the Senate bill that 
will look at consent, but it only looks at consent from the 
standpoint of commercial usage, not Federal usage. So we have 
those ongoing jobs. And then GAO does have a request in to look 
at face recognition technology across the rest of law 
enforcement.
    Chairman Cummings. Well, going back to Ms. Pressley's 
questions about the whole idea of language, do you all feel 
comfortable? I mean, I assume that you have looked at TSA 
already, right?
    Ms. Goodwin. We are just starting that engagement, so we 
haven't----
    Chairman Cummings. So you haven't looked at the pilot 
program.
    Ms. Goodwin. Not as of yet, but I imagine that will be part 
of what we examine. But that engagement, that work just started 
at GAO.
    Chairman Cummings. And one of the things I am hoping that 
you will look at is that whole question. You know, people are 
in a hurry. They are trying to get to where they have to go. A 
lot of people don't even know what facial recognition is. They 
don't have a clue. And then if you have a language problem, 
that is even more, Mr. Gould. It is something to consider. Have 
you all thought about that?
    Mr. Gould. Yes, sir. I was remiss when I answered the 
question before. One of the reasons we are doing these pilots 
is to really assess the efficiency of how we communicate with 
passengers, can we do it better, can the signage be better, 
multiple languages in certain areas, is that something we 
should be looking at. All that will be assessed with respect to 
these pilots before making a decision moving forward.
    Chairman Cummings. Ms. Tlaib?
    Ms. Tlaib. Thank you, Mr. Chairman. I have to tell you--and 
through the Chairman, I hope this is okay--this stuff freaks me 
out. I am a little freaked out by facial recognition, Mr. 
Chairman. I hope that is okay, I can say that.
    Chairman Cummings. Yes, that is okay.
    Ms. Tlaib. Thank you.
    My residents in Michigan's 13th congressional District have 
been subjected to increased surveillance and over-policing for 
decades. Currently, the city of Detroit rolled out a real-time 
video surveillance program called Project Green Light in 2016 
to monitor crime at late-night businesses like gas stations and 
liquor stores. But now the system has expanded to over 500 
locations, including parks, churches, schools, women's clinics, 
addiction treatment centers, and now public housing buildings. 
Without notice or public comments from residents, the Detroit 
Police Department added facial recognition technology to 
Project Green Light, which means Detroit Police Department has 
the ability to locate anyone who has a Michigan driver's 
license or an arrest record in real time using video cameras 
mounted across the city in a data base of over 50 million 
photos.
    In January 2019, reports emerged that FBI had begun 
piloting the use of Amazon Rekognition, Amazon's controversial 
software that can match faces in real-time video, similar to 
Project Green Light. Rekognition, like real-time facial 
surveillance programs, has dangerously high error rates for 
women of color as compared to white males. In the 13th 
congressional District, residents will disproportionately bear 
the harms of facial recognition misidentification.
    So, Ms. Del Greco, what policies does the FBI have in place 
regarding the use of real-time facial recognition technology? I 
heard claims that you all are not using it, but there is a 
pilot program; correct?
    Ms. Del Greco. No, there is not. For the Amazon Rekognition 
software, to the best of my knowledge and verified before I 
came today, the FBI does not have a contract with Amazon for 
their Rekognition software. We do not perform real-time 
surveillance.
    Ms. Tlaib. Through the Chair, if I may, if you can produce 
that documentation and that information to our committee, I 
would really greatly appreciate that.
    Ms. Del Greco. We will do so.
    Ms. Tlaib. Now, can you explain how the FBI--so the FBI is 
not currently using Amazon Rekognition at all.
    Ms. Del Greco. We are not.
    Ms. Tlaib. Good. So in March 2017, NIST released a report 
on accuracy of facial recognition systems when applied to 
individuals captured in real-time video footage. The report 
found significantly higher error rates for real-time use of 
Rekognition, with accuracy rates as low as 60 percent.
    So, Dr. Romine, do you think that the use of real-time 
facial recognition technology is ready for law enforcement 
usage?
    Mr. Romine. That is a judgment that NIST is not prepared to 
make. That is a policy judgment that should be predicated on 
the best available scientific data, which is our position.
    Ms. Tlaib. Well, what does your scientific data say?
    Mr. Romine. The scientific data verifies that facial 
recognition accuracy is highly dependent on image quality and 
on the presence of injuries. Both of those things can affect 
the ability to have accurate----
    Ms. Tlaib. So is there any viable solution to improving the 
real-time capabilities?
    Mr. Romine. I can't predict how accurate the systems will 
be in the future as they continue to develop. Currently, 
systems that use facial images that are not in profile or that 
are not straight on, like mug shot images, or facial images 
that are indistinct or blurred, have a much lower ability to 
match.
    Ms. Tlaib. Dr. Goodwin, do you have any information about 
the inaccuracies--and I know that you all had several 
recommendations, but can you talk a little bit more about my 
question in regards to is this fixable?
    Ms. Goodwin. So, in regards to your question about the 
Amazon Rekognition technology, that was not something that we 
looked at for the purposes of our report, so I won't be able to 
speak to that.
    Ms. Tlaib. But in regards to, right now, the use of facial 
recognition accuracy, you all had six recommendations about 
transparency and so forth, but I was just talking to some of my 
colleagues, and how do you fix something like this when you 
dump so many innocent people into a data base? I mean, the 
numbers are 411 million. I think I heard from you 600 million 
people are now in this data base that is being used for 
criminal justice purposes, which I am not sure what is the 
definition of that.
    Ms. Goodwin. So, I will kind of start a little bit at the 
beginning. So for the NGI-IPS, there are 36 million photos in 
the criminal part of that. There are 21 million photos for the 
civil part of that. And then as you look across all of the 
searchable data bases or repositories that FACE has access to, 
that is over 600 million. So that is what I was talking about 
earlier.
    The recommendations that we made, those three 
recommendations that we made related to accuracy, we feel like 
this would go a long way to helping DOJ better ensure that the 
data that they are collecting, the way they are using the 
information, that that is accurate. As of yet, as you have 
heard, DOJ has yet to close those recommendations, and we will 
work very closely with them to get those closed because the 
issues around privacy and accuracy are very important, and they 
are vitally important when you are talking about using this 
technology.
    Ms. Tlaib. Thank you.
    Mr. Chairman, through you, if it is possible, this is very 
important to my district and to others, if we can get some 
follow up and confirmation that indeed the current 
administration does not have any pilot program going on with 
Amazon Rekognition program?
    Chairman Cummings. Thank you very much, Ms. Tlaib. What we 
will do--I don't know if you heard me earlier--we are going to 
bring folks back in six weeks to two months, somewhere in that 
area, and I am hoping that before then they will have those 
questions resolved. But definitely we will check back then. All 
right?
    Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    In the Fourth Amendment, our founding fathers endowed with 
us ``the right of people to be secure in their persons, houses, 
papers, and effects against unreasonable searches and 
seizures.'' The Fourth Amendment guarantees us that these areas 
shall not be unreasonably intruded upon with most searches 
founded upon a warrant. And over the last few weeks we have 
been hearing, whether from the private sector or the public, we 
have heard about facial recognition technology being used in 
airports, protests, being purchased off of social media, et 
cetera.
    Ms. Del Greco, you are with the FBI. Does the FBI ever 
obtain warrants before deploying the use of facial recognition 
technology?
    Ms. Del Greco. The criminal mug shots are searched by our 
law enforcement partners, and all photos are collected pursuant 
to an arrest with the criminal ten print fingerprint.
    Ms. Ocasio-Cortez. And in use of facial recognition, it is 
beyond just the search of the criminal data base but scanning a 
person's face I would say is akin to searching their face in 
order to match it to a data base. Does the FBI ever obtain a 
warrant to search someone's face using facial recognition?
    Ms. Del Greco. We do not do real-time searching. We do not.
    Ms. Ocasio-Cortez. Okay. Do you require your external 
partners to obtain a warrant?
    Ms. Del Greco. I mean, they must do so with a criminal law 
enforcement interest.
    Ms. Ocasio-Cortez. Does the FBI use any information from 
any other agency with respect to facial recognition?
    Ms. Del Greco. We share our records with other Federal 
agencies with regard to law enforcement purposes.
    Ms. Ocasio-Cortez. In our May 22 hearing, Chairman Cummings 
stated that he was present at the 2015 Baltimore protests 
following the death of Freddie Gray. At those protests the 
Baltimore County Police Department allegedly used facial 
recognition technology to identify and arrest certain citizens 
present at the protest exercising their First Amendment rights.
    Ms. Del Greco, has the FBI ever used facial recognition 
deployed at or near a protest, political rally, school, 
hospital, courthouse, or any other sensitive location?
    Ms. Del Greco. No, we have not.
    Ms. Ocasio-Cortez. And do you think that the generalized 
facial surveillance should be permissible? Do you think that 
that undermines the First Amendment?
    Ms. Del Greco. I do think that protecting the American 
people is extremely important to us. The FBI absolutely wants 
the best, most fair system. We want to make sure that we are 
following the guidelines, process, protocols, and standards 
that we put in place for law enforcement.
    Ms. Ocasio-Cortez. Okay, thank you.
    Mr. Gould, you are with the TSA. The TSA has outlined 
proposals to collaborate with private companies, including 
Delta and Jet Blue, to develop and implement their facial 
recognition search systems. Is this correct?
    Mr. Gould. Ma'am, we have issued a security program 
amendment to Delta to allow them to use biometric 
identification at their bag drop. In terms of partnering with 
them to develop the back-end matching system, that is something 
that we are solely engaged with CBP on.
    Ms. Ocasio-Cortez. And the bag drop, those are the 
computers that folks check in and get their boarding pass from?
    Mr. Gould. That would be the--I would use the term 
``kiosk'' for that.
    Ms. Ocasio-Cortez. The kiosk.
    Mr. Gould. Delta uses that technology at their kiosk. TSA 
has no equity there. That is solely to verify that passengers 
have a reservation with Delta. Where we have equity is at our 
checkpoint, and also at the bag drop, where we are required to 
ensure that the passengers match to their bag.
    Ms. Ocasio-Cortez. Do individuals know that that is 
happening, and do they provide explicit consent? Is it opt in?
    Mr. Gould. Passengers have the opportunity to not 
participate.
    Ms. Ocasio-Cortez. So it is opt out, but not opt in.
    Mr. Gould. It is. Yes, ma'am.
    Ms. Ocasio-Cortez. So it is possible that Jet Blue and 
Delta are working with the TSA to capture photos of passengers' 
faces without their explicit opt-in consent.
    Mr. Gould. Ma'am, I was down in Atlanta last week and 
watched the Delta check-in process, the bag drop process, and 
it was very clear while I was down there that passengers were 
afforded the opportunity, if you would like to use facial 
capture for identification, please stand in front of the camera 
and we will do so. There was no automatic capture of passengers 
or anything like that.
    Ms. Ocasio-Cortez. And this capture is not saved in any 
way; correct?
    Mr. Gould. No, ma'am. The camera captures the image. The 
image is encrypted. It is sent to the TVS matching system, 
which is what CBP uses, solely for the purpose of match, and 
then that match result is sent back to the operator.
    Ms. Ocasio-Cortez. Is that captured image destroyed?
    Mr. Gould. It is not retained at all. No, ma'am.
    Ms. Ocasio-Cortez. So it is sent, but it is not retained.
    Mr. Gould. It is not retained on the camera. No, ma'am.
    Ms. Ocasio-Cortez. Okay. Could these companies potentially 
be using any part of this process to either capture the 
algorithm or data?
    Mr. Gould. No, ma'am. I don't see that happening currently 
with the pilots that we are doing right now.
    Ms. Ocasio-Cortez. Okay, thank you very much.
    I yield back to the Chair.
    Chairman Cummings. Thank you very much.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you very much, Mr. Chairman.
    When we had our hearing on May 22 in this committee, there 
was an MIT researcher, Joy Buolamwini, who was testifying about 
datasets that NIST uses, and that they may not adequately test 
for the full range of diversity present in the U.S. population. 
She said, ``In evaluating benchmark datasets from organizations 
like NIST, I found some surprising imbalances. One prominent 
NIST dataset was 75 percent male and 80 percent lighter 
skinned, what I like to call a `pale male' dataset.''
    So, Dr. Romine, can you discuss how representative datasets 
are when it comes to race, gender, and age?
    Mr. Romine. Sure. The data that we obtain is from multiple 
sources. The largest amount of data that we get--first I need 
to make a distinction between data that we are releasing as 
part of the ability for vendors to determine whether they are 
able to submit their algorithms to our system, to our 
evaluation process. So we provide them with data for that.
    The rest of our data, the vast majority of it, is 
sequestered. It is not made public. It is solely for the 
purposes of evaluation. Most of that data is FBI image data 
that we sequester and protect from release. There is some other 
image data related to Creative Commons, to images that we have 
received with full institutional review that involves 
permissions, and then also deceased datasets.
    In all cases, if you look at the full suite of data, it is 
true that it is not representative of the population as a 
whole. However, we have a large enough dataset that our 
evaluation capabilities can be statistically analyzed to 
determine demographic effects of race, age, or sex. And we are 
in the process of doing that now and will release that report 
in the fall.
    Mr. Sarbanes. So I gather that since the last hearing you 
have been testing for differential error rates on the facial 
recognition systems between races and genders. Can you talk a 
little bit more about the error rates of the algorithms that 
you tested between different races and genders?
    Mr. Romine. Sure. I can say a little of preliminary 
information, but I want to stress that the full statistical 
analysis, the rigorous analysis, is not completed yet. The 
report will be released in the fall that outlines the full 
conclusions that we have with regard to effects, demographic 
effects, broadly speaking.
    We can say that there are still remaining differences even 
with the extraordinary advances in the algorithms over the last 
five years. There are still differences remaining that we can 
detect. We don't yet know whether those differences--whether it 
is with regard to race, sex, or age--are significant. We don't 
know yet until we have completed that analysis.
    Mr. Sarbanes. So you understand the concern. There are at 
least two levels of analysis that are of concern here today. 
One is the threshold question of whether we like or don't like 
this technology given the general threat that it can pose to 
civil liberties. The second theme is whether recognizing that 
the technology is barreling ahead anyhow and is being adopted 
and applied increasingly across many different platforms, let's 
say, and uses, whether it is being developed in a way that 
ensures that when it is used, it is not being used in a 
discriminatory fashion, it is not being applied unfairly, et 
cetera. And that depends on the algorithms being developed in a 
way that is respectful of accurate data, and we are not there 
yet, as I understand it. So it just increases the anxiety 
level.
    So we are going to be paying a lot of attention. I am glad 
the Chairman is going to have you all come back, because I 
think he is right that this is sort of a moving target here. We 
are going to be paying a lot of attention to how the data gets 
digested and how the algorithms that flow from that data are 
being applied, whether they are accurate and so forth.
    So we appreciate your testimony, but obviously this is not 
the end of the inquiry.
    With that, I yield back.
    Chairman Cummings. Mr. Sarbanes, a while ago we were told 
that the basis for a lot of these agreements between the FBI 
and the states were--well, the authorization and regulations, 
whatever, were put together before facial technology came 
about, if you want to talk about the moving target. So it 
wasn't even anticipating this, and we still haven't caught up. 
That is part of the problem.
    Thank you very much.
    Mr. Jordan?
    Mr. Jordan. Thank you. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today. I 
appreciate the time and the expertise that you brought to this 
important hearing. I think you understand that from both sides 
of the aisle there is a real concern.
    Ms. Del Greco, I appreciate you being here. I know you had 
to answer a lot of questions. But I hope you understand how 
serious everyone is on this committee with this issue.
    I think you have to understand the framework. I mean, you 
talked about strict standards in place. There were strict 
standards in place, at least people from our side of the aisle 
view it this way, strict standards in place on how people go to 
the FISA court and get information and put information in front 
of the FISA court. The Attorney General of the United States 
has tapped U.S. Attorney John Durham to look at potential 
spying done by the FBI of one Presidential campaign.
    So this is the context and the framework that many on our 
side see this happening, and it is happening when GAO--not Jim 
Jordan, not Republicans--GAO--Dr. Goodwin said that when you 
guys started this, started using this, you didn't follow the E-
Government law, you didn't do privacy impact assessments like 
you are supposed to, you didn't provide timely notice, didn't 
conduct proper testing, and didn't check the accuracy of the 
state systems that you were going to interact with.
    So that is the backdrop, that is the framework. So when 
Republicans talk about we are concerned and working with 
Democrats--and I really do appreciate the Chairman's focus on 
two hearings, and now a third hearing, and looking at 
legislation that we may attempt to pass here. This is the 
framework. So I hope you will tell the folks back at the FBI, 
we appreciate the great work that FBI agents do every single 
day protecting our country and stopping bad things from 
happening and finding bad people who did bad things, but the 
framework and the context is very serious, and that is why we 
come at it with the intensity that I think you have seen both 
two weeks ago in that hearing and in today's hearing.
    So again, Mr. Chairman, thank you for your leadership on 
this, and I would thank our witnesses again for being here.
    Chairman Cummings. I too want to thank the witnesses for 
being here for almost three hours. We really do appreciate your 
testimony.
    Of all the issues that we have been dealing with, this 
probably will receive the most intense scrutiny of them all. 
The Ranking Member referred to the fact that we are bringing 
you all back, but we also have two subcommittees that are also 
looking into this because we want to get it right. It is just 
that important, and so I thank you.
    Without objection, the following shall be a part of the 
hearing record: Face Recognition Performance, Role of 
Demographic Information, scientific study dated December 6, 
2012; Faceoff, Law Enforcement Use of Face Recognition 
Technology, white paper by the Electronic Frontier Foundation; 
GAO Priority Open Recommendations, Department of Justice letter 
to AG Barr and GAO; Ongoing Face Recognition Vendor Tests, Part 
I Verification, NIST report, NIST; Ongoing Face Recognition 
Vendor Tests, Part II, NIST report; Face and Video Evaluation, 
Face Recognition of Non-Cooperative Subjects, NIST report; 
coalition letter calling for a Federal moratorium on face 
recognition, coalition letter; and the coalition of privacy, 
civil liberties, civil rights, and investor and faith groups, 
including the ACLU, Georgetown Law, LGBT Technology 
Partnership, and the NAACP.
    Chairman Cummings. I want to thank again our witnesses for 
being here today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the Chair, which will be forwarded to the 
witnesses for their response. I would ask that our witnesses 
please respond as promptly as possible.
    With that, this hearing is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
